<html>
<title> - PCB CONTAMINATION IN ANNISTON, ALABAMA</title>
<body><pre>[Senate Hearing 107-637]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-637
 
                 PCB CONTAMINATION IN ANNISTON, ALABAMA
=======================================================================






                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   APRIL, 19, 2002--ANNISTON, ALABAMA

                               __________

         Printed for the use of the Committee on Appropriations












 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                           U.S. GOVERNMENT PRINTING OFFICE
81-528                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

           Subcommittee on VA, HUD, and Independent Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     CONRAD BURNS, Montana
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
ERNEST F. HOLLINGS, South Carolina   MIKE DeWINE, Ohio
                                     TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Paul Carliner
                           Gabriel A. Batkin
                              Alexa Sewell
                         Jon Kamarck (Minority)
                          Cheh Kim (Minority)














                            C O N T E N T S

                              ----------                              
                                                                   Page
Statement of A. Stanley Meiburg, Deputy Regional Administrator, 
  Region 4, Environmental Protection Agency......................     1
Opening statement of Senator Barbara A. Mikulski.................     1
Statement of Senator Richard C. Shelby...........................     3
Statement of A. Stanley Meiburg..................................     5
    Prepared statement...........................................     6
Statement of Henry Falk, M.D., MPH, Assistant Administrator, 
  Agency for Toxic Substances and Disease Registry, Department of 
  Health and Human Services......................................    11
    Prepared statement...........................................    12
Superfund Designation Process....................................    16
EPA Vs. Corporate Clean up Activities............................    16
Preventing Further Contamination Episodes........................    18
Adequacy of Consent Decree.......................................    18
Community Participation..........................................    19
Testing for PCBs.................................................    19
Comprehensive Health Study.......................................    20
Role of ATSDR....................................................    20
Recusal of EPA Officials.........................................    21
Author of Consent Decree.........................................    22
Superfund Site Designations......................................    24
Consent Decree...................................................    25
Staff Involved in the Creation of the Consent Decree.............    26
PCB Levels.......................................................    27
Health Effects of High PCB Levels................................    28
Timing of EPA Action.............................................    29
Timing on ATSDR Participation....................................    33
Actions by the Community.........................................    34
Health Studies...................................................    34
Statement of David Baker, Sr., President, Community Against 
  Pollution (CAP), Anniston, Alabama.............................    37
    Prepared statement...........................................    39
Statement of Stephen A. Cobb, Chief, Hazardous Waste Branch, 
  Alabama Department of Environmental Management.................    44
James Wright, Office of the General Counsel......................    44
Prepared statement of Stephen A. Cobb............................    46
Completing Remediation...........................................    48
Actions by the State.............................................    49
Re-Establishing Trust............................................    49
Superfund Designation............................................    50
Actions by the State.............................................    53
Citizen Volunteerism.............................................    54
Health Study.....................................................    56



















                 PCB CONTAMINATION IN ANNISTON, ALABAMA

                              ----------                              


                         FRIDAY, APRIL 19, 2002

                           U.S. Senate,    
               Subcommittee on VA, HUD, and
                              Independent Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski and Shelby.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF A. STANLEY MEIBURG, DEPUTY REGIONAL 
            ADMINISTRATOR, REGION 4


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning. The Subcommittee on VA, HUD 
Appropriations will come to order.
    We are having a special hearing today on the issues related 
to the PCB contamination in Anniston, Alabama. This hearing is 
being conducted at the request of Senator Richard Shelby, the 
senior Senator from Alabama, a member of this subcommittee, and 
a member of the Appropriations Committee.
    Senator Shelby has expressed a long-time concern about the 
situation in Anniston, Alabama, and what is the government's 
role, and is government performing its role. He will speak for 
himself. I was very interested in cooperating with Senator 
Shelby, not only out of Senatorial courtesy, but we do like to 
know what is happening on the ground at the regional level, and 
we see that Anniston is a good example of, perhaps, lessons 
learned on how we could be doing our job more effectively.
    Anniston, Alabama is like so many American communities, 
working class folks trying to make a living, a once-thriving, 
heavy industrial community, just like the people in my own 
hometown of Baltimore. And like the people of Baltimore, I am 
on their side. These hardworking people are facing an immense 
public health crisis after decades of pollution from a PCB 
factory, and Anniston's waterways, backyards, and playgrounds 
have been polluted.
    I am troubled that the Anniston families are also facing a 
health crisis, and they seem to have run into a lot of 
bureaucracy, paper shuffling, and finger pointing between State 
and Federal Government instead of the action to help them. I 
want to hear about this. I am going to hear the side of 
government. I am going to hear from Annistonians themselves.
    I called this hearing today to achieve two goals: One, as 
part of our oversight to Federal agencies in this 
subcommittee's jurisdiction, EPA and the ATSDR, which stands 
for the Agency for Toxic Substances and Disease Registry. These 
agencies have been involved and are more responsible for 
protecting public health from environmental hazards.
    Second, we are going to hear from the residents of Anniston 
themselves about their concerns. It appears that this community 
has been ignored for a very long period of time, and it is 
important that we hear from them directly about what is 
happening to them and to their town.
    We are not here today to pass judgment on the industry that 
polluted, because a jury of its peers has already done that. We 
are a Senate committee, not a jury. But we do need to look at 
how the people of Anniston can be helped so they can feel safe 
in their own community, and of lessons learned, so that it does 
not happen again in another community.
    American citizens have a right to know about harmful 
threats. They have a right to be heard, and they have a right 
to be protected. That is the name of the Federal agency charged 
with this, the Environmental Protection Agency.
    This subcommittee cannot ignore that the highest ranking 
EPA official cannot testify today. We welcome the Deputy 
Regional Administrator. We know that Administrator Whitman has 
another commitment.
    Senator Shelby, she has always accommodated our requests to 
testify, so we can understand why she cannot be here today.
    In no way do we mean to belittle you, Mr. Meiburg. In fact, 
we welcome you. But we really need to be hearing from someone 
with high-level decision-making authority in an issue of this 
magnitude, and such a tremendous impact on the community.
    To my surprise, I found that a number of high-ranking EPA 
officials have to be recused from this issue because of past 
associations with the companies involved. Now, this does not 
mean any wrongdoing, but it does cast pretty serious concern 
about regional staff ties to the companies they are supposed to 
regulate, and I am going to raise that issue in our 
conversation.
    Now, let us go to Anniston, Alabama. It was the home of a 
factory producing PCBs from 1935 to 1971, one of only two PCB 
factories in the United States, and we know that PCBs are one 
of the most challenging chemicals facing us, and that they were 
widely used in the past. PCBs, since 1979, have been linked 
with cancer and other devastating health effects.
    The people of Anniston have struggled for a long time, and 
since 1993, when they first learned about how contaminated 
their community has become, they have tried to get help to get 
it cleaned up. They went to the State, to the EPA. Nothing was 
done.
    Finally, 7 years ago, the residents sued the company that 
owned the factory for polluting the town, endangering the 
health of Anniston, and for an alleged coverup of health risk 
and pollution. Only after a guilty verdict did EPA announce a 
consent decree with the company. EPA says the timing was 
coincidental. I find it surprising.
    We are also going to hear today from Mr. David Baker, an 
Anniston community activist. And I know that there are other 
activists in the audience, and we welcome them.
    I am going to ask the representative from EPA some really 
very firm questions about why it took repeated requests for 
assistance, a citizens' lawsuit, to finally get EPA to act.
    I am going to be absolutely clear that nothing said in this 
hearing is intended to interfere with ongoing litigation, and I 
am going to underline it, and bright-line it.
    Senator Shelby, you are an excellent attorney, and I know 
you will keep this between the safe lines, because that is the 
Judicial Branch, and we are the Legislative Branch.
    We understand that the proposed consent decree between EPA 
and the industry is in public comment until June 3, so it is 
appropriate that we are holding this hearing. As I said, the 
people of Anniston have a right to be heard, a right to real 
oversight. They deserve action. And the taxpayer deserves 
getting value out of the EPA and ATSDR, to be responsive, to be 
able to protect the community.
    That concludes my opening remarks, and I now turn to you, 
Senator Shelby, for anything you wish to say.


                 statement of senator richard c. shelby


    Senator Shelby. Thank you. First of all, Madam Chairman, I 
want to thank you for agreeing to hold this hearing today. I 
believe it is a very important issue to me and to my 
constituents.
    In 1976, Congress passed and the President signed into law 
the Toxic Substances Control Act. This legislation effectively 
banned the manufacture of PCBs in the United States.
    During consideration of the original legislation, then 
Senator Tunney stated that the bill, and I will quote, ``would 
close major gaps in the law that leave the public inadequately 
protected against the unregulated introduction of hazardous 
chemicals into the environment.''
    My guess is that Senator Tunney had no idea that 30 years 
later the citizens of Anniston, Alabama, and perhaps other 
parts of the country, Madam Chairman, would continue to be 
poisoned by those same PCBs that Congress sought to protect 
against 30 years ago.
    While our country has come a long way in protecting its 
citizens against harmful chemicals that pollute the 
environment, and have detrimental health effects, the past 
continues to haunt us. I am not sure how we remedy that, nor am 
I sure that it can be remedied. I am confident that through 
enforcement, agencies like EPA, ATSDR, and ADEM, the citizens 
of Alabama and across the country should feel secure with the 
assumption that everything is being done to protect their 
health and well-being.
    What I see here today, Madam Chairman, is uncertainty about 
that assumption. Knowing what I know about the history of PCBs 
in Anniston, Alabama, I do not believe that everything has been 
done to protect their health and well-being. In fact, I am 
fairly certain that many of these agencies were, at the very 
least, complacent in their dealings with Monsanto. This fact is 
extremely troubling, given the information that has recently 
been discovered with respect to Monsanto's early knowledge 
about the dangers of PCBs.
    In 1966, Monsanto managers hired a Mississippi State 
biologist named Denzel Ferguson, who informed them then that 
fish submerged in Snow Creek turned belly up in 10 seconds, 
shedding skin as if dumped in boiling water. In 1969, 3 years 
later, Monsanto found fish in Choccolocco Creek that were 
deformed, and lethargic, and some contained 7,500 times the 
legal PCB level. Yes, 7,500 times the legal PCB level.
    Given the overwhelming evidence that PCBs were, indeed, 
harmful to the fish from surrounding waterways, Monsanto then 
informed the Alabama Water Improvement Commission, ADEM's 
predecessor, that PCBs were entering Snow Creek again in 1969. 
The Alabama Water Improvement Commission took no action. In 
fact, they encouraged Monsanto to keep the pollution quiet, due 
to a reluctance to inform the public, which would require the 
issuance of a fish advisory.
    So what we have from the very beginning is a conscious 
decision to conceal information from the public, information 
that might well have protected numerous Anniston residents from 
exposure to harmful chemicals in these waterways.
    In 1983, the Federal Soil and Conservation Service found 
PCBs in Choccolocco Creek, but took no action again.
    In 1985, State authorities found PCB contamination in Snow 
Creek, and reported their finding to the EPA; however, the EPA 
deferred cleanup of Snow Creek to the Alabama Department of 
Environmental Management. For years, ADEM, as we call it, did 
nothing, and EPA did not follow-up on the initial reports, or 
the cleanup measures, as best as I can tell.
    It was not until sometime in 1988 that Monsanto began to 
implement a Snow Creek sediment removal effort. The EPA 
conducted an RCRA facility assessment, identifying solid waste 
management and areas of concern in 1991. These areas of concern 
were identified after Monsanto had begun implementing the 
requirements of the RCRA Part B permit, including closure 
activities, groundwater monitoring, and development of 
groundwater corrective action systems.
    What makes all of this even more troubling is that in 1993, 
ADEM, the Alabama Department of Environmental Management, 
conducted another investigation of Snow Creek and Choccolocco 
Creek that resulted in the issuance of a, I quote, ``No 
consumption fish advisory.'' In other words, ``Don't eat the 
fish.'' This was in 1993, by the Alabama Department of Public 
Health.
    I will not go into the time line, but I think that this 
gives us a good idea of what has happened in Anniston. Time and 
again, monitoring was done, measures were implemented, and PCBs 
continued to appear. Quite frankly, this troubles me. It 
troubles me that there were repeated monitorings and 
investigations, and that it took years before any corrective 
action was taken.
    No one monitored EPA's activities; no one monitored ADEM's 
activities; and, most importantly, no one monitored Monsanto's 
activities. Monsanto ceased all PCB production at their 
Anniston facility in 1971, but the facility is still there, and 
it is operating. In fact, today, they produce a chemical used 
in Tylenol, and until recently had not reported a toxic release 
in four years. Despite this new production, PCBs still exist on 
the facility grounds, in the two landfills, and who knows where 
else.
    The people who live around the Monsanto plant have higher 
PCB levels than most any other residential population. Many 
residents believe that their town has an abnormally high rate 
of cancer, miscarriages, and liver, heart, and other ailments 
that they say can be traced to Monsanto's PCB production. To 
date, a comprehensive study of the illness rates in Anniston 
residents has not been conducted. I think this is a failure of 
the system.
    I cannot believe that we would continue to work towards a 
cleanup, monitor groundwater, surface water, and soil 
composition, and never once ask how all this is affecting the 
health of the citizens that live there.
    I understand that Solutia, which is the successor company 
to Monsanto, and EPA have reached an agreement to clean up 
Anniston, but I have to agree with my constituents, that it 
fell short of expectations. I believe it is imperative to 
conduct a comprehensive health study for the residents, yes, 
the residents, the people who live in Anniston. Without this 
information, without the best science and information 
available, I believe we will continue to make bad decisions and 
bad choices for the people who live there.
    I plan to work with the Labor and HHS Appropriations 
Subcommittee to request a comprehensive health study in 
Anniston, Alabama, and I would call on EPA today and Solutia to 
work with me towards this goal.
    The past actions of the agencies testifying today cause me 
great despair. It is my hope that they will be able to reassure 
me and to reassure my constituents that the actions of the past 
will in no way reflect what they will do in the future.
    Madam Chairman, I want again to thank you for holding this 
hearing today. It is very important, I believe, to my 
constituents, and perhaps to others like this in the United 
States.
    Senator Mikulski. Well, thank you very much, Senator 
Shelby. I think you have laid out the issues very clearly, and 
we thank you for that.
    We are now going to turn to Deputy Regional Administrator 
Stanley Meiburg, who is a professional from EPA, who has been a 
career public servant and comes also with a doctorate from 
Johns Hopkins, in my own home State. I welcome you.
    And then we have Dr. Falk, who is also the Assistant 
Administrator for the Agency for Toxic Substances and Disease 
Registry, who himself is a physician, as well as brings his 
considerable background in public health. So he understands the 
day-to-day issues involved in being a patient, but also what 
are the public health impacts of the advice that can be given.
    So, Mr. Meiburg, we are going to turn to you.
    And then, Dr. Falk, then you can go ahead. And we will then 
go into questioning.
    Mr. Meiburg. Thank you very much, Madam Chair.


                    statement of a. stanley meiburg


    Madam Chair and Senator Shelby, my name is Stan Meiburg, 
and I am the Deputy Regional Administrator for the 
Environmental Protection Agency's Region 4 office in Atlanta, 
Georgia. I am pleased to have the opportunity this morning to 
testify about EPA's efforts to address PCB contamination in 
Anniston, Alabama.
    Over the years, polychlorinated biphenyls, known as PCBs, 
and lead, have been discovered at levels of concern in 
commercial and residential areas of the city. PCBs have also 
been found in creeks, rivers, flood plains, and lakes as far 
away as 40 miles downstream. The principal sources of these 
PCBs is the chemical manufacturing plant owned formerly by 
Monsanto, and currently by Solutia, Incorporated.
    EPA is working with other Federal, State, and local 
agencies to address pollution in Anniston. Most recently, EPA 
and the Justice Department signed a consent decree with 
Solutia. Under this decree, Solutia will conduct a 
comprehensive study of PCB contamination in Anniston and the 
surrounding area. The consent decree has been lodged in Federal 
District Court, and the Justice Department is currently taking 
public comment on it. After review of the comments, EPA and the 
Justice Department will decide whether to ask the District 
Court to finalize the consent decree.
    My prepared statement covers these activities in more 
detail, but this morning I would like to briefly describe why 
we think this approach will produce progress for a 
comprehensive, scientifically sound cleanup.
    Senator Mikulski. Mr. Meiburg, if you would withhold for a 
moment. I ask unanimous consent that your full statement be 
included in the record. I note that what you are giving now is 
a summary of your testimony. Let the record also show that our 
brief review of your written testimony only eliminates the 
historical aspects of this in the time we have allowed you, but 
it does not leave out the important issues that you want to 
address. Am I correct?
    [The statement follows:]

                Prepared Statement of A. Stanley Meiburg

    Madam Chair and Members of the Subcommittee, my name is Stan 
Meiburg, and I am the Deputy Regional Administrator for the 
Environmental Protection Agency's (EPA) Region 4 office in Atlanta, 
Georgia. I am pleased to have the opportunity to testify this morning 
concerning EPA's activities to address PCB contamination in Anniston, 
Alabama.
    Anniston has been home to industrial activities for many years, and 
some of these activities have led to significant pollution problems. 
Specifically, polychlorinated biphenyls (PCBs) and lead have been 
discovered at elevated levels in commercial and residential areas of 
the city. PCBs have also been found in creeks, rivers, flood plains and 
lakes as far as forty miles downstream. EPA and other federal, state 
and local agencies are responding to the contamination and have 
instituted numerous activities and programs throughout Anniston and 
Calhoun County. EPA and the Department of Justice (DOJ) recently signed 
a Consent Decree with two corporate parties legally responsible for the 
PCB pollution, Solutia Inc., and Pharmacia Corporation. Under the 
settlement, the companies will hire EPA-approved contractors to conduct 
a thorough, comprehensive study of the PCB problem in Anniston and the 
surrounding area. The companies will also immediately clean up private 
residential properties in the area that have the highest levels of 
contamination. The Consent Decree has been lodged in federal district 
court and DOJ is currently taking public comment on it. After review of 
the comments, EPA and DOJ will decide whether to ask the district court 
to finalize the Consent Decree.
    EPA is committed to protecting human health and the environment in 
Anniston. EPA intends to work in a cooperative fashion with state and 
local government, industry, and the citizens of Anniston, to ensure a 
comprehensive cleanup. Because PCBs are considered probable carcinogens 
and are linked to neurological and developmental health problems, EPA 
is committed to using our available resources and authorities to 
protect the public health and welfare of the citizens of Anniston. The 
following discussion will review the history of the PCB problem in 
Anniston and the actions EPA has already undertaken. I will also 
describe the terms of the Consent Decree and explain why we believe 
this will result in a comprehensive, scientifically sound cleanup of 
Anniston.
    Beginning in the 1930's, Monsanto produced PCBs and other 
substances in Anniston. Monsanto ceased the production of PCBs in 
Anniston in 1971. In 1997, Monsanto formed Solutia Inc., (Solutia) and 
transferred ownership of its chemical division, including the Anniston 
plant, to it. Solutia still owns the Anniston plant, which encompasses 
70 acres of land, is located about one mile west of downtown Anniston, 
and remains in operation manufacturing other chemicals. Over the 
facility's lifetime, the plant disposed of hazardous waste at two large 
unlined landfills which are located adjacent to the plant.
    EPA's involvement with cleanup activities at this site has 
paralleled the evolution of federal laws regulating the disposal and 
cleanup of hazardous waste. The Resource Conservation and Recovery Act 
(RCRA) which governs the ongoing operation of facilities that handle 
hazardous waste was passed in 1976, and amended by the Hazardous and 
Solid Waste Amendments of 1984 (HSWA). The Comprehensive Environmental 
Response, Compensation and Liability Act (CERCLA or Superfund) which 
deals primarily with the cleanup of abandoned hazardous substances, was 
passed in 1980, and amended in 1986 by the Superfund Amendments and 
Reauthorization Act (SARA). After CERCLA and RCRA were enacted it took 
several more years for EPA to develop regulations implementing the 
programs.
    EPA first became involved with this facility in the late 1970's, in 
the early stages of the development of the federal legal structure for 
addressing hazardous waste contamination. In the early 1980's, EPA 
worked with the State of Alabama to determine how, and under which 
program, to best address facilities like the Monsanto plant in 
Anniston. EPA and the Alabama Department of Environmental Management 
(ADEM) evaluated the operating facility under both RCRA and CERCLA 
during the early 1980's and determined at that time that the RCRA 
program was best suited to address the facility since it was an 
operating plant.
    Between 1980 and 1985 the facility submitted an application for an 
operating permit and, like thousands of industrial facilities around 
the United States, continued to operate existing hazardous waste units 
under RCRA interim status pending a final permit. EPA added groundwater 
monitoring requirements in 1985. In 1986, Monsanto was issued a joint 
RCRA permit from EPA and ADEM covering the facility.
    In 1985, the Alabama Attorney General's office informed EPA that 
contamination in nearby Snow Creek was caused by releases of PCBs from 
the Monsanto plant. Later that same year, following discussions between 
the Alabama Attorney General's Office, ADEM, and EPA, federal action 
regarding Snow Creek was deferred to the State and the State committed 
to require Monsanto to submit a proposed cleanup plan for approval. In 
1988, after submitting a cleanup plan to ADEM, Monsanto removed 
approximately 1000 tons of PCB contaminated material from Snow Creek 
and a nearby ditch.
    However, further investigation by both EPA and the State of Alabama 
continued to show concerns. In 1991, confirmation sampling performed by 
EPA identified remaining contamination, and Snow Creek and its 
associated drainage features were identified as potentially 
contaminated areas. In 1993 and 1994, EPA's Superfund program, pursuant 
to the Agency's RCRA deferral policy, formally deferred cleanup of the 
Site to the EPA RCRA program, and the EPA RCRA program informally gave 
ADEM the lead to regulate off-site contamination at the facility. In 
1993, Alabama issued a public fish consumption advisory for Snow Creek, 
Choccolocco Creek, and Lake Logan Martin as a result of sampling 
conducted by ADEM.
    In 1995, ADEM asked state and federal health agencies to conduct 
health studies in a residential neighborhood surrounding Monsanto's 
facility based on the potential for off-site PCB contamination. At 
approximately the same time, ADEM entered into a Consent Order with 
Monsanto under state and federal water laws to have Monsanto determine 
if PCBs were being released, or had been released, into the community. 
The studies indicated that PCBs from the facility had contaminated the 
neighboring community. As a result, Monsanto voluntarily initiated a 
buy-out and relocation program for residents of a portion of the 
adjacent community in order to stop any ongoing exposure and to 
implement interim remedial measures to prevent future releases of PCBs. 
Solutia eventually purchased approximately one hundred properties as 
part of this voluntary program and/or the 1996 Consent Order discussed 
below. These properties consisted of approximately 44 occupied 
residential properties, 39 vacant residential properties, 14 commercial 
properties, and 2 churches.
    In 1996, in response to recommendations of health studies conducted 
by the Alabama Department of Public Health (ADPH) and the Agency for 
Toxic Substance and Disease Registry (ATSDR), EPA and ADEM agreed that 
ADEM should enter into a second Consent Order with Monsanto to address 
both on-facility and off-facility contamination until it could be 
incorporated into the facility's permit. ADEM received final 
authorization to issue permits for the entire RCRA program in 1996, and 
reissued the RCRA permit in 1997 to cover all on-site and off-site 
contamination caused by the facility.
    On December 31, 1998, EPA received a letter from the West Anniston 
Environmental Justice Task Force, now known as Citizens Against 
Pollution (CAP), asking for EPA action in regard to PCB contamination 
in Anniston. CAP indicated that the residential contamination extended 
beyond the areas previously addressed. In June of 1999, EPA conducted 
soil and air sampling around the facility in response to citizen 
concerns. In July of 1999, ADEM requested that EPA take the lead role 
in administering remediation activities at certain off-facility areas 
under CERCLA because Solutia refused to address those areas pursuant to 
its RCRA permit.
    EPA's CERCLA program began sampling off-facility properties in west 
Anniston in February of 2000 to expand our understanding of the scope 
and extent of PCB contamination in west Anniston. Since February of 
2000, EPA has sampled approximately 800 residential, public, and 
commercial properties. In October of 2000, Solutia entered into a 
Consent Order with EPA, which was revised by an amended Consent Order 
in October of 2001. Under the Consent Order, Solutia agreed to take 
over the residential sampling for EPA in the areas covered by the 
Order, and address any property where PCBs are found at a level that 
could cause short-term health concerns. This work is being done with 
close supervision by EPA. Pursuant to this Order, at any home where PCB 
levels in the yard exceed short-term risk levels, Solutia is required 
to temporarily relocate the residents and remove the contaminated soil 
and replace it with clean fill. Of the more than 1,000 homes that have 
been sampled by EPA or Solutia thus far, 24 properties require clean up 
because they exceed the short-term clean up levels.
    EPA and Solutia have also sampled hundreds of properties for lead 
contamination in Anniston. EPA will conduct a soil removal cleanup at 
any residential properties where lead contamination is found at levels 
which warrant immediate removal. EPA intends to follow up this limited 
cleanup with negotiations with potentially responsible parties (PRPs) 
that historically contributed to the lead contamination to get them to 
address areas or properties where lead levels may pose a health threat.
    EPA has worked hard to establish a good working relationship with 
the citizens of west Anniston. EPA's goal has been to develop a 
successful community outreach network so that all the citizens of west 
Anniston can find a receptive audience for their concerns and 
questions. EPA has taken steps to ensure that local government, 
community, and civic organizations are able to give the Agency input 
regarding EPA's cleanup activities in Anniston. In February of 2000, 
EPA established a local EPA Community Relations Center (CRC) staffed on 
a daily basis in downtown Anniston. The CRC has served the community as 
an information center, by distributing brochures and fact sheets, by 
answering thousands of phone calls, and by providing services to 
hundreds of visitors. EPA also has held numerous public meetings and 
availability sessions to explain EPA's activities and receive input 
from the community.
    EPA's activities have included extensive door-to-door outreach to 
develop ties with local citizens and meetings with local community 
groups. EPA has provided $85,000 of grant funding to local groups to 
allow them to hire consultants to assist them in understanding EPA's 
activities in Anniston. EPA has also met repeatedly with local elected 
officials to keep them up to date regarding EPA's ongoing activities in 
Anniston. Earlier this week, on April 16, EPA had another public 
availability session in Anniston to inform the community about the 
Consent Decree. EPA intends to continue all of these community outreach 
activities for as long as necessary to help keep the citizens informed 
and involved in the ongoing cleanup process. Additionally, by law, many 
of EPA's ongoing or planned activities provide specific public comment 
and public outreach requirements. EPA is committed to ensuring full 
public access and participation in all future cleanup decisions in 
Anniston.
    Over the years, EPA has attempted to work closely with ADEM and 
other agencies to maximize the resources the government is able to 
bring to bear in Anniston. In the past, EPA and ADEM followed a basic 
division of labor for Anniston, with the State taking the lead role in 
the remediation of the Solutia plant property while EPA handled all 
other areas. In 2000 EPA, at the request of the community, conducted an 
independent review of the cleanup of the plant and the two landfills on 
Solutia's property. EPA utilized its Environmental Response Team (ERT) 
to conduct this review. ERT is a specialized group within EPA which 
provides expertise and support at the request of the Regions at 
significant sites posing unique problems. The ERT published a report of 
its findings in May of 2001. While the ERT Report supported ADEM's 
activities on the property, it also indicated that several areas needed 
additional study and that more work needs to be done to ensure that 
there are not ongoing releases from the facility and the landfills.
    In early 2001, EPA began informal negotiations regarding Anniston 
with Solutia and Pharmacia. EPA informed the companies that it wanted 
to conduct a Remedial Investigation/Feasibility Study (RI/FS) under the 
Superfund process which would fully define contamination in the area 
and develop cleanup alternatives. Typically at Superfund sites, EPA 
signs an administrative agreement with responsible parties to conduct 
the RI/FS. In this case, however, EPA has negotiated a judicial consent 
decree because a judicial consent decree requires a public comment 
process and EPA believes that, given the level of community concern 
regarding PCBs, an open comment period would be beneficial to the 
community.
    In November 2001, EPA and DOJ began formal Consent Decree 
negotiations with the companies. The negotiations resulted in a Consent 
Decree being signed by the United States and both corporations. The 
Consent Decree was lodged in federal District Court on March 25, 2002. 
Since public input is an important part of the Superfund process, the 
Consent Decree is currently undergoing an open comment period where 
everyone has the opportunity to submit comments for 60 days, until June 
3, 2002. If, after review of the comments, the United States decides to 
proceed with the Consent Decree, it will petition the federal court to 
enter the Consent Decree.
    The Consent Decree requires that Solutia and Pharmacia hire EPA-
approved contractors to conduct the RI/FS to evaluate the extent of the 
contamination, the risks it poses to public health and the environment, 
and to develop final cleanup options for the Site. The study will be 
rigorously overseen by EPA. Following completion of the study, EPA will 
select a final cleanup remedy after a further public input process. EPA 
then intends to negotiate another Consent Decree with Solutia/Pharmacia 
to implement the final remedy which would also involve rigorous 
oversight by EPA. The current Consent Decree requires that all of 
Solutia/Pharmacia's work be done following the comprehensive and strict 
requirements of the federal Superfund process. The Consent Decree also 
requires that the clean up of residential yards continue on a worst 
first basis; that $3.2 million be committed by the companies over a 
period of twelve years to assist the community with helping children 
with special educational needs; and provides up to $150,000 for citizen 
groups to hire technical consultants to participate in the study and 
evaluation process. Finally, EPA will be reimbursed over $6 million in 
taxpayer money it has already spent on various cleanup actions in 
Anniston.
    The Consent Decree requires the RI/FS process to cover all areas 
where PCBs are located, including the Solutia plant property and the 
landfill areas. EPA will build on ADEM's previous work in these areas, 
and intends to work cooperatively with ADEM's RCRA program to maximize 
resources and avoid redundancy. EPA made the decision to assess the 
entire Anniston area under the Consent Decree for the following 
reasons: (1) because of the widespread nature of the PCB contamination; 
(2) to provide a single programmatic and legal framework for the entire 
area; and (3) to ensure that before EPA conducts cleanup activities 
downstream and in floodplain areas that there is no potential for 
release of PCBs from the property. By conducting the additional air, 
groundwater, and soil studies called for in the ERT Report, EPA will 
make certain that the Solutia facility and the landfills are not 
ongoing sources of contamination.
    The final long-term cleanup of Anniston presents extremely 
complicated technical and legal issues because the contamination 
involves a large and diverse geographic area. The contamination has 
spread to area waterways and their floodplains, as well as hundreds of 
residential, commercial, and agricultural properties. To completely 
address the pollution problem in Anniston will likely take years of 
hard work and cost millions of dollars. Therefore, EPA has developed a 
basic strategy to clean up the most highly contaminated areas first 
while simultaneously conducting a detailed study to determine the best 
final cleanup solution to protect the public health and welfare of the 
people of Anniston. EPA believes that utilizing the Superfund process 
is the best guarantor of a timely, complete, efficient cleanup. EPA's 
Superfund program has proven it has the expertise to successfully clean 
up areas such as Anniston. EPA is committed to the Superfund legal 
principle that the polluters should either undertake cleanup activities 
themselves under close government oversight or bear the costs for 
government-led cleanup actions. EPA is also committed to ensuring that 
cleanup activities in Anniston are done in a technically appropriate, 
cost-effective manner, that is based on sound science.
    This concludes my prepared statement. I would be pleased to answer 
any questions that you may have.

    Mr. Meiburg. Yes, Madam Chair. Thank you very much.
    Senator Mikulski. Okay. So please proceed.
    Mr. Meiburg. Thank you.
    During the 1980s and 1990s, EPA worked with the Alabama 
Department of Environmental Management, or ADEM, to address PCB 
contamination in Anniston. In the mid-1990s, however, we 
received reports from citizens concerned about the extent of 
contamination. In July of 1999, ADEM asked us to use our 
Superfund authority to address certain areas outside the 
boundary of the plant, and in April 2000, Governor Siegelman 
wrote to the President requesting his assistance.
    Since then we have conducted soil and air sampling at 
residential, commercial, and industrial properties in West 
Anniston, and identified properties with PCB levels which need 
immediate cleanup. This work is being paid for by Solutia. More 
than 1,000 residential properties have been sampled to date, 
and Solutia, under close EPA supervision, must address any 
property where PCB levels raise short-term health concerns.
    In February of 2000, we set up a community relations center 
in downtown Anniston, and have funded consultants from local 
community groups to help them understand our activities. We 
also conducted an independent review of the Solutia plant 
property, which showed that while a lot of good work has been 
done, some areas need additional study to make certain there 
are not ongoing releases from the property.
    We also needed a comprehensive plan to clean up PCB and 
lead contamination which can pose longer-term risks. Therefore, 
in early 2001, EPA began negotiations with Solutia to conduct a 
remedial investigation and feasibility study which would fully 
define contamination associated with their facility, and 
develop cleanup alternatives.
    These negotiations resulted in the consent decree which was 
lodged in Federal District Court on March 25. The consent 
decree was open for public comment until June 3, 2002. This 
consent decree requires Solutia to hire EPA-approved 
contractors to evaluate the extent of the contamination, its 
risk to public health, and the environment, and to develop 
cleanup options for the site. This work will be rigorously 
overseen by EPA. EPA will then select a final cleanup remedy 
after additional public input.
    Solutia will have to follow the requirements of the Federal 
Superfund process, continue to clean up residential yards on a 
worst-first basis, spend $3.2 million on a trust to help 
children with special educational needs, and provide $150,000 
for citizen groups to hire technical consultants. In addition 
to paying EPA's future oversight costs, Solutia will also 
reimburse over $6 million for past EPA expenses.
    The remedial investigation and feasibility study will cover 
areas where PCBs are located, including the Solutia plant 
property. Its coverage is broad for three reasons: first, the 
widespread nature of the PCB contamination; second, to provide 
a comprehensive framework for the entire area; and third, to 
ensure that there is no potential for future releases of PCBs 
from the property.
    We are all aware that the community would have wanted EPA 
to include in this consent decree funding for medical services. 
We were not able to achieve this outcome since we had no 
authority under Superfund to require funding of this type. 
However, Solutia has agreed to the educational trust described 
above, and we regard this as a positive step. Moreover, the 
consent agreement gives the government the ability to carefully 
oversee all study and cleanup actions. The fact that the 
company entered into this consent decree shows public 
involvement at every step in the process, and ensures that 
maximum available funds are spent on actual cleanup activities.
    The ultimate cleanup of Anniston will be complicated, 
because the contamination involves a large and diverse 
geographic area, and will take years of hard work, and cost 
millions of dollars to fix. In this case, our Superfund 
authorities are the best guarantee of a timely, complete 
cleanup, and we have the technical expertise necessary to 
oversee the work.
    We are proud of our ongoing activities, and look forward to 
working with our other Federal partners, local and State 
authorities, citizen groups, and individuals to protect the 
public health and the environment in Anniston.
    Thank you for the opportunity to testify, and I will be 
happy to address any questions you may have.
    Senator Mikulski. We will come to those. Thank you.
    Dr. Falk.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

STATEMENT OF HENRY FALK, M.D., MPH, ASSISTANT 
            ADMINISTRATOR, AGENCY FOR TOXIC SUBSTANCES 
            AND DISEASE REGISTRY
    Dr. Falk. Thank you very much.
    Good morning, Madam Chair and Senator Shelby. My name is 
Henry Falk, and I am the assistant administrator of the Agency 
for Toxic Substances and Disease Registry.
    Let me say very briefly that ATSDR is a Department of 
Health and Human Services agency, but we have a role under 
CERCLA and Superfund to work closely with EPA, State health 
departments, and local communities for looking at the health 
issues related to Superfund sites. I am pleased to be here with 
you this morning to share our agency's work in Anniston, 
Alabama.
    I would like to briefly highlight some of our health-
related activities in Anniston, and I would ask that my longer 
written testimony be made part of the record.
    Our initial involvement in Anniston came in 1995 when the 
Alabama Department of Health, with both technical and financial 
support from ATSDR, found that there was a likelihood of human 
exposure to PCBs for residents living next to the site where 
PCBs were produced in the past. The PCBs were clearly at 
decidedly elevated levels. The average was 24.5 parts per 
billion, which is considerably high for an average level.
    Both the Alabama Department of Health and ATSDR conducted a 
number of continuing consultations and investigations in 
subsequent years, with assistance from EPA, State, and 
community groups. In the year 2000, we prepared a report 
summarizing the information on serum PCB levels and other 
information on almost 3,000 individuals in Anniston.
    Almost half of the individuals had detected levels of PCB 
in their blood. Approximately 15 percent had levels that were 
above 20 parts per billion, and actually 35 percent were above 
10 parts per billion. All of these are considerably elevated 
numbers.
    PCB levels in some residential soils posed a public health 
hazard.
    Last year, ATSDR did another smaller exposure investigation 
of individuals living close to the site, and again, five of 43 
adults had elevated PCB levels in their blood, although none of 
the 37 children tested had elevated levels.
    Also, last year, ATSDR released two health consultations 
related to lead contamination in Anniston. And in response to 
community concerns, we worked together with, again, the State 
and local health departments, Community Against Pollution, and 
other community groups, to facilitate a screening program for 
lead poisoning values in children. Although a few elevated 
levels were found, collectively, the data did not indicate 
levels of lead in children that were higher than State or 
nationwide levels.
    As a result of this program, CAP, Community Against 
Pollution, acquired additional resources from several groups to 
conduct ongoing monthly health education classes regarding lead 
poisoning in the community, and I think the collaborative 
effort involved in that project did foster good communication 
between the community, local physicians, and State and Federal 
health agencies.
    In a meeting, again, last year with David Baker and members 
of CAP, there were two other things that I had promised him 
that we would work on. One was to have a workshop related to 
the potential for health studies and to evaluate those issues, 
and we did have a workshop in January of 2001. We hope to have 
the results of that workshop available next month.
    Second, we did highlight the issue of the importance of 
neurobehavioral development in children exposed to PCBs, and 
the importance of education programs, and several groups have 
continued to focus on that.
    We have a number of upcoming activities in Anniston; we are 
continuing to review available environmental data, and 
additional health data. We have been assisting others working 
in that area, such as on a project that CDC will be doing, in 
assessing community environmental health issues. We stand very 
ready, as we have in the past, to work with groups at the State 
level, local level, and community level to conduct any further 
sampling of serum levels, any further health testing, and 
review of environmental data.
    This concludes my testimony. I will be happy to answer any 
questions. Thank you.
    Senator Mikulski. Thank you very much, Dr. Falk.
    [The statement follows:]

             Prepared Statement of Henry Falk, M.D., M.P.H.

    Good morning, Madame Chairman and members of the Subcommittee. I am 
Dr. Henry Falk, and I am the Assistant Administrator of the Agency for 
Toxic Substances and Disease Registry (ATSDR). I am pleased to be 
meeting with you today to share with you the results of our agency's 
ongoing work in Anniston, Alabama.
    We join you in your concerns about the health and well being of 
children and families in Anniston and across the country. We also share 
your desire to address the concerns expressed about illnesses and 
diseases that might be linked to environmental factors. In fact, ATSDR 
was created to address these types of concerns.
    Congress created ATSDR in 1980 through the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA), more 
commonly known as Superfund. The Superfund legislation created ATSDR to 
be the principal public health agency to evaluate the human health 
effects related to exposure to hazardous substances from waste sites 
and other locations with uncontrolled releases of hazardous substances 
into the environment. ATSDR was charged with evaluating public health 
concerns and advising the U.S. Environmental Protection Agency (EPA) 
and State health and environmental agencies on any actions needed to 
clean up hazardous waste sites and protect the public's health.
    ATSDR works in close collaboration and partnership with EPA; other 
Federal agencies; local, State, and tribal governments; health care 
providers; and affected communities. As an agency of the U.S. 
Department of Health and Human Services (DHHS), ATSDR has made a 
difference to all of these partners by providing new information to 
assist in remedial decision-making and evaluation. Our work includes 
answering the health questions of persons who live in communities near 
affected sites, recommending preventive measures to protect public 
health, and providing diagnosis and treatment information to local 
health care providers. ATSDR administers public health activities 
through partnerships; public health assessment and consultation 
activities; exposure investigations; health studies and health registry 
activities; development of toxicological profiles and attendant 
research; emergency response; health education and health promotion; 
and community involvement.
    Today, I will summarize our health activities in Anniston and also 
report on some of the activities of our partners.
    Anniston Health Issues.--In response to community members' concerns 
about polychlorinated biphenyls (PCBs) in Anniston, ATSDR is working 
with EPA Region 4, the Alabama Department of Public Health, and the 
Alabama Department of Environmental Management to identify 
environmental contaminants in selected areas of west Anniston. 
Investigations, both past and ongoing, have determined that PCBs are 
present in the soil at numerous residential and commercial properties 
in Anniston. In more recent investigations, EPA is further assessing 
the contamination by sampling for other contaminants, including metals 
such as lead.
    The earliest health work was done by the Alabama Department of 
Public Health with both technical and financial support from ATSDR. In 
1995 that department released a report indicating the likelihood of 
human exposure to PCBs for residents living next to a site where PCBs 
were produced in the past. The ensuing investigation found that 
approximately 25 percent of the people tested had elevated levels of 
PCBs in their blood. The department's health assessment released last 
year determined that people living near the Solutia plant were at risk. 
The results showed that there was both a current and past public health 
hazard for children if they were exposed to PCBs in soil at specific 
homes where the soil had not been remediated.
    ATSDR Research on PCBs.--ATSDR has published extensive up-to-date 
information on PCBs in its Toxicological Profile for Polychlorinated 
Biphenyls, which was revised in November 2000. An ATSDR paper on the 
public health implications of PCBs published in September of 1999 
reported the following potential health effects associated with 
exposure to PCBs:
  --Reproductive function may be disrupted by exposure to PCBs.
  --Neurobehavioral and developmental deficits occur in newborns who 
        were exposed to PCBs in utero, and these deficits may continue 
        through school-age.
  --Other systemic effects are associated with elevated serum levels of 
        PCBs.
  --PCB exposure is associated with increased cancer risk.
    Additional research conducted under the Great Lakes research 
program has further demonstrated that:
  --Children born to mothers who consumed more than the median number 
        (116) of fish meals before their pregnancy were significantly 
        more likely to have low birth weight.
  --Maternal serum PCB concentration was significantly associated with 
        fish consumption and low birth weight.
  --Infants who had been exposed prenatally to the most highly 
        chlorinated PCBs had poorer performance on the habituation and 
        autonomic tests of the Neonatal Assessment Scale when tested 
        24-48 hours after birth than did infants who were not exposed.
    The relationship between prenatal exposure to PCBs and performance 
on the Fagan Test of Infant Intelligence (FTII) was assessed in infants 
at 6 months and again at 12 months. The results indicated a significant 
relationship between exposure to PCBs and poor performance on the FTII.
    PCBs and DDE were markedly elevated in a cohort of adults who 
consumed fish. Exposure to PCBs, but not to DDE, was associated with 
lower scores on several measures of memory and learning.
    ATSDR Health Consultation Activities Related to PCB Exposures.--In 
2000, ATSDR released a draft consultation of our evaluation of PCB soil 
and air data provided by EPA and information provided by an Anniston 
attorney on the biological blood sampling data of 3,000 individuals. 
The consultation reported the following findings:
  --PCB levels in some residential soils posed a public health hazard.
  --About half of the persons tested had detectable levels (greater 
        than 3 parts per billion for this consultation) of PCB in their 
        blood.
  --Approximately 15 percent of the persons tested showed blood PCB 
        levels that indicated elevated environmental exposure, or 
        levels greater than 20 parts per billion.
  --Air data were not sufficient to make a health judgment.
    At the request of residents, ATSDR conducted a health consultation 
to evaluate water quality in two private wells in Anniston. The health 
consultation found that all substances of concern in the well water 
samples were below levels of health concern.
    Last year ATSDR released a final report on an exposure 
investigation conducted to address community concerns about ongoing 
exposure. A primary interest in the investigation was evaluating 
exposures to children. The report concluded that:
  --Five of 43 adults tested had blood PCB levels that indicated 
        elevated environmental exposure.
  --None of the children tested (37) had blood PCB levels indicating 
        elevated environmental exposure.
  --Blood PCB levels were not correlated with soil or house dust PCB 
        levels.
    ATSDR Health Consultation Activities Related to Lead Exposure.--In 
2001, ATSDR released two health consultations related to lead 
contamination in Anniston. The first found elevated levels of lead for 
west Anniston properties. The second consultation evaluated lead levels 
at a softball park about 5 miles from Anniston. The health consultation 
found that lead levels at the park were below levels of health concern.
    In response to community concerns that children in Anniston could 
be exposed to lead, ATSDR and a local group, Community Against 
Pollution (CAP), facilitated a screening program in spring 2001. The 
program focused on children less than 6 years old who lived in areas of 
Anniston known to have contaminated soil. Four of the 410 children 
screened were found to have blood lead levels equal to or greater than 
current guidelines of 10 micrograms per deciliter (g/dL). Close to 25 
percent of the children screened had blood lead levels of 5.0 g/dL to 
9.9 g/dL. These findings provide evidence that children are being 
exposed to lead. Because of the limited number of sampling results, 
this project did not provide a complete picture of blood lead levels in 
Anniston. Collectively, however, the data indicate that blood lead 
levels in children in Anniston are similar to those reported for other 
areas of the State and nation.
    As a result of this program, CAP acquired additional funding from 
several sources to conduct ongoing monthly health education classes in 
the community. These classes emphasize the importance of continued 
screening and provide information that community members can use to 
reduce the potential for exposure to lead.
    The collaborative efforts demonstrated through the success of the 
screening program have fostered communication among the Anniston 
community, local physicians, and local, State, and Federal health 
agencies. The project provides evidence that community-based research 
can result in a successful outcome for everyone involved.
    PCB Expert Workshop.--In early January of this year, ATSDR held a 
panel session in Atlanta entitled Exploring Opportunities for PCB-
Related Health Studies in Anniston, Alabama. The purpose of the session 
was to gather input from nationally recognized PCB experts on issues 
related to the options of conducting health study activities in 
Anniston. The seven experts on the panel came from different 
universities throughout the United States, including the University of 
Alabama at Birmingham and Harvard University. Among the issues 
discussed at the session were research needs, community needs, and 
methods for reaching a better understanding of exposure in the Anniston 
community. Community members, as well as State and Federal health and 
environmental officials, attended as audience observers. A summary 
report of the meeting will be available in May.
    Pediatric Environmental Medical Support.--In 2000, the Southeast 
Pediatric Environmental Health Specialty Unit (PEHSU), which is based 
at Emory University in Atlanta and is supported by ATSDR and EPA, 
became involved in Anniston to provide information and support to local 
pediatricians. While in Anniston, it became clear that there was 
concern among community members for the health and well-being of the 
children. In particular, concerns were voiced regarding the number of 
children who had difficulties with development, learning, and behavior. 
The big question voiced by community residents was what role pollution 
played in this picture.
    A series of meetings was held over the course of a year between the 
PEHSU representatives and the leaders in the community. These meetings 
focused on finding a solution to help the children, rather than on what 
may or may not be the cause. On December 4, 2001, a day-long working 
conference was held in Anniston. Leaders from all sectors of the 
community attended the conference. Participants included the mayor and 
representatives from community action groups, business, education, and 
health care all committed to the well-being of the children of 
Anniston.
    Conference attendees produced a list of concepts and ideas for 
future discussion, including the following:
  --An inventory of existing agencies to identify resources in the area 
        that would be needed to meet the needs of children with 
        learning and developmental problems.
  --A program to enhance existing services for children with learning 
        and developmental disabilities; additional services could also 
        be considered to better meet the needs of as many children as 
        possible. This program could improve the likelihood of a 
        positive outcome and success in life for the children of 
        Anniston.
  --A process for documenting learning and developmental disabilities 
        in Anniston and evaluating the success of intervention 
        services.
    A Steering Committee was established to explore these suggestions. 
The committee has met twice and has scheduled a community-wide meeting 
for April 30, 2002, to update the entire community on the progress to 
date and generate the next set of steps.
    Health Care Needs.--ATSDR has neither the legislative authority nor 
the resources to provide medical care in any of the communities in 
which we work. Moreover, frequently we find that ``Superfund'' 
communities lack the necessary medical care resources. We can and do 
call on our Pediatric Environmental Health Specialty Units to provide 
medical care referrals. We offer specialized training to local 
physicians on diagnosis and treatment related to exposure to specific 
chemicals. We also work to identify other programs in the U.S. 
Department of Health and Human Services that may offer assistance and 
resources to these communities.
    Future Activities in Anniston.--ATSDR in cooperation with EPA, 
State and local agencies, and the community is continuing a number of 
activities, including:
  --A health consultation reviewing air data near the site for January 
        2000 January 2001;
  --A review of available blood lead data for Calhoun County over the 
        past 5 years;
  --A final version of the health consultation entitled Evaluation of 
        Soil, Blood, & Air Data from Anniston, Alabama;
  --Collecting samples of locally grown vegetables, which will be 
        tested for the presence of PCBs and lead;
  --A health consultation that will evaluate fish consumption as a 
        potential PCB exposure pathway;
  --Assisting as appropriate in the Protocol for Assessing Community 
        Health Excellence in Environmental Health (PACE-EH, funded by 
        the National Center for Environmental Health, Centers for 
        Disease Control and Prevention), under the direction of the 
        Calhoun County Health Department. This community-based process 
        will provide a better understanding of the environmental health 
        concerns of the community.
    We have been intensively involved in the Anniston community for the 
past 3 years, and will continue our work for the foreseeable future. In 
close cooperation with our partners in the community, in the State, in 
other Federal agencies, and in academia, we remain committed to 
protecting and promoting the health of Anniston's citizens.
    Madame Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the other subcommittee members may have.

    Senator Mikulski. Ordinarily, the Chair begins the line of 
questioning, but as a Senatorial courtesy, I would like to 
extend to Senator Shelby the opportunity to begin the 
questioning. I believe it will set the tone, and will establish 
a very good framework.
    Senator, please.
    Senator Shelby. Thank you, Madam Chairman. Thank you for 
your courtesy. We have worked together on a lot of issues since 
we were in the House together, and then in the Senate.
    Senator Mikulski. Senator, remember, we were on the Energy 
and Commerce Committee when so much of this legislation that we 
are overseeing today was created by Superfund----
    Senator Shelby. Absolutely.
    Senator Mikulski [continuing]. And we were one of their 
supporters.

                     SUPERFUND DESIGNATION PROCESS

    Senator Shelby. We worked together then, and we work 
together now. Thank you, Madam Chairman.
    I will direct these questions, unless I say otherwise, to 
the Deputy Regional Administrator of EPA, Mr. Meiburg.
    Does EPA, sir, always handle Superfund contamination in 
this manner, that is, by ceding responsibility to the State 
agencies?
    Mr. Meiburg. Senator, generally, Superfund is a Federal 
program that, unlike many of the programs that EPA has which 
are delegated authorities of the Clean Air Act, or the Clean 
Water Act, or the Resource Conservation Recovery Act, Superfund 
itself is one that we directly administer ourselves.
    Senator Shelby. Okay. Tell me how the cleanup effort, or 
tell the Committee, I should say, would differ if Anniston were 
officially declared a Superfund site, and if they were placed 
on the National Priorities List.
    Mr. Meiburg. Senator, actually, the activities that we have 
laid out in the consent decree are exactly what we would be 
doing if----
    Senator Shelby. The same thing?
    Mr. Meiburg. Yes. That is correct.
    Senator Shelby. In other words, there would be no 
difference if you put Anniston on the so-called--if it were 
declared a Superfund site, and was placed on the national 
priorities list, that would not make any difference?
    Mr. Meiburg. No. If we placed it----
    Senator Shelby. Then why do you have a different list then?
    Mr. Meiburg. If we placed it on the National Priorities 
List, the first step that would occur would be that we would 
conduct a remedial investigation and feasibility study to 
determine the extent of contamination and to develop 
alternatives for cleanup, which is exactly what this consent 
decree provides.

                 EPA VS. CORPORATE CLEAN UP ACTIVITIES

    Senator Shelby. Okay. The citizens of Anniston are 
concerned that Solutia, which is the successor company--they 
just changed the name, I think--to Monsanto, would be 
overseeing testing and cleanup of any future PCB contamination 
detected. Is this the normal practice? Why does EPA not do the 
work, and make the company pay, in other words?
    Mr. Meiburg. Well, let me see if I understand the question 
correctly.
    Senator Shelby. Do you want me to ask it again?
    Mr. Meiburg. Yes, please.
    Senator Shelby. Okay. The citizens of Anniston that I have 
talked with are very concerned that Solutia, the company, will 
be overseeing the testing and cleanup of any future PCB 
contamination that is detected. My question is: Is this a 
normal practice? And why does EPA not do the work, and make the 
company pay, rather than the company do the work?
    Mr. Meiburg. There are two ways we can proceed on cases 
like this.
    Senator Shelby. Okay.
    Mr. Meiburg. One, as you said, is for EPA to do the work, 
and then go back and seek reimbursement from the company. The 
other option we can have is for the company to pay up front to 
do the work with oversight by EPA, which is provided for at 
every step in the process.
    Senator Shelby. Well, see, a lot of the people there would 
have a lot more confidence in EPA than they would in the 
company who they believe brought the pollution in the first 
place, and covered it up for years. Do you understand where--it 
is a question----
    Mr. Meiburg. Yes, sir.
    Senator Shelby [continuing]. Of credibility.
    Mr. Meiburg. Yes, sir. The credibility issue is very 
important, and we fully understand the very significant role 
that we have in providing exactly that kind of oversight. The 
decree provides that in the conduct of our oversight that if we 
determine at any point that the company is not following 
exactly the procedures that are laid out that we would use, 
then we can step in and take over the activities.
    Senator Shelby. In your testimony, you state that the 
contractors will be hired to conduct a thorough, comprehensive 
study of the PCB program in Anniston and the surrounding areas; 
however, others have alleged that the study will only be done 
on property where PCB contamination has been detected.
    Could you please explain to the committee exactly what will 
be studied, so that we are all clear? In other words, if you 
are just going to look where PCBs have been discovered thus 
far, that sounds like a sham cleanup.
    Mr. Meiburg. Senator, the point----
    Senator Shelby. See, you have to reassure the people of 
what you are doing; otherwise, they would have no confidence in 
this measure, and rightly so. Go ahead, sir.
    Mr. Meiburg. Yes. That is absolutely right. It is very 
important that the people have confidence in the results of the 
study. The intent that we have in the oversight, and the 
conduct of the study is to look throughout the community----
    Senator Shelby. Okay.
    Mr. Meiburg [continuing]. To see where it is possible the 
PCBs may have been, whether they have been found there 
previously or not.
    Senator Shelby. That is what you mean by ``comprehensive 
study.''
    Mr. Meiburg. Yes, sir.
    Senator Shelby. Your intention is to clean--find what is 
there, identify, and clean it up----
    Mr. Meiburg. Yes, sir.
    Senator Shelby [continuing]. Is that right?
    Mr. Meiburg. Yes, sir. In part, the reason why 
comprehensive is so important is that, as you look over the 
history of identification of contamination at this site, when 
you look back you find that it initially started as a narrow 
potential area of concern, and expanded as we got more 
information, for example, about where the flood plain was. Some 
of this information is information that we received from 
citizens themselves that has been very helpful.

               PREVENTING FURTHER CONTAMINATION EPISODES

    Senator Shelby. How do we prevent another Anniston-type 
situation from happening? That has to be a concern of yours at 
EPA. Could it be happening again?
    Mr. Meiburg. That is a very good question. The main thing, 
in terms of preventing activities like this from happening in 
the future, reaches to a couple of areas. The first is: We have 
to make sure that we have good laws and regulations on the 
books to govern people's activities, and that those laws and 
regulations are effectively enforced.
    We have to have a very strong partnership with all of the 
people involved, including communities, as well as State 
regulatory agencies under the Resource Conservation Recovery 
Act, and our own activities to make sure that companies are 
preventing pollution problems. It is much easier to prevent 
them than it is to clean them up afterwards.
    Senator Shelby. Right now, we have a cleanup, a big, bad 
cleanup problem, have we not?
    Mr. Meiburg. Yes, sir. In Anniston, this is going to be a 
very difficult----
    Senator Shelby. Words have meaning, we always know that, 
and the word ``comprehensive'' has deep meaning, but only if a 
comprehensive job is actually carried out; in other words, done 
right, broad and deep. Is that correct?
    Mr. Meiburg. Yes, sir.

                       ADEQUACY OF CONSENT DECREE

    Senator Shelby. Mr. Baker alleges in his written testimony 
that the consent decree makes no sense, given Monsanto's past 
performance, specifically because it does not address a cleanup 
of the landfills. The allegation is that the PCBs continue to 
come from these sites. Are they, and how do we guarantee that 
it is not happening?
    Additionally, if you could, address specifically why these 
were not included as part of the cleanup initiative called for 
in the consent decree. In other words, if you are going to talk 
about a comprehensive plan to clean it up, do you not have to 
go to the landfills, too? Do you want to comment on that?
    Mr. Meiburg. Yes, sir, I will. One of the precise reasons 
that we included the landfills, which are on the property of 
the plant itself, in the framework of the consent decree, was 
to ensure that risks from the landfills would be addressed as 
part of the overall assessment, that we have to make sure, that 
as a scientific matter, whether or not there are continued 
releases from the landfill to look at the----
    Senator Shelby. In other words, you are not excluding the 
landfills----
    Mr. Meiburg. No, sir. They are very much included.
    Senator Shelby [continuing]. In the consent decree. You are 
saying they are not going to be excluded.
    Mr. Meiburg. That is correct.
    Senator Shelby. They will be included----
    Mr. Meiburg. Yes, sir.
    Senator Shelby [continuing]. Okay, in the comprehensive 
study.
    Mr. Meiburg. Yes, sir.

                        COMMUNITY PARTICIPATION

    Senator Shelby. A lot of people argue that they have been 
largely ignored throughout this process, and have no one to 
speak for them. And in particular where the terms of the 
consent decree is concerned, some of the most important needs 
of the community a lot of people feel have not been addressed. 
Have the communities' needs been addressed, do you believe, in 
this, or will they be addressed?
    I think most of them, maybe not all concerns, but are the 
ones of health. In other words, a lot of people cannot move 
from the community. They do not have economic resources to do 
that. They have to live there. They worry. They are worried 
about their children. They are worried about their health, and 
rightly so. Do you want to address that? Do you think they have 
been included, their concerns here, or will they be? They have 
not in the past, so the question is: What is different now?
    Mr. Meiburg. Senator, the issue of the needs of the 
community is one that is important to us. We recognize that 
when you look at the issue of community needs, you are not just 
talking about cleanup of the site; you are talking about all of 
the needs, whether they be health, whether they be economic 
development----
    Senator Shelby. That is right.
    Mr. Meiburg [continuing]. Any of those kind of things. What 
we are trying to do, within the scope of our statutory 
authority, is to make sure that what we are doing is well 
explained to the community, that we have a presence in the 
community, so that people can understand what is going on, and 
address questions that they may have. That is one of the 
reasons that in the negotiation of the consent decree, we 
pushed for some provisions that we could not do if we were 
doing the activities on our own; for example, the educational 
trust fund.
    Senator Shelby. Has the Anniston community been treated 
differently from other communities with similar problems in the 
United States, or is it a uniform policy?
    Mr. Meiburg. Senator, I do not know if I could speak for 
every community in the United States, but I will say that we 
have tried, because of the concern the community has raised to 
us, to make sure that we are paying particular attention to 
answering questions, and working with groups in the Anniston 
community.

                            TESTING FOR PCBS

    Senator Shelby. Is it possible to test to guarantee that 
the dumps are not releasing PCBs? In other words, if the PCBs 
are there, has any testing been done of the dumps to see, thus 
far, to your knowledge? Do you know?
    Mr. Meiburg. There has been testing done at the dumps. One 
of the things we would like to do in the course of the study is 
to do some additional testing to make sure.
    Senator Shelby. Comprehensive testing?
    Mr. Meiburg. Yes, sir. There are three possible pathways 
for release of the contaminants from the dumps. One would be 
surface water runoff. The second would be airborne release of 
some form. And the third would be groundwater contamination. So 
we want to make sure that each one of those pathways is fully 
investigated.

                       COMPREHENSIVE HEALTH STUDY

    Senator Shelby. Should not a complete health study be done 
there, and should it not be done by some group like the Center 
for Disease Control, or somebody that the people would have 
confidence in their findings? Do you oppose that?
    Mr. Meiburg. No, we do not oppose that at all. I would 
defer----
    Senator Shelby. Do you promote that? I would promote it. Do 
you disagree with it?
    Mr. Meiburg. No, sir.
    Senator Shelby. Okay. Do you have any comment on it?
    Mr. Meiburg. Only that I would defer on the expertise of 
that, as we do ourselves, that we are not health experts, and 
we usually defer to our colleagues with the ATSDR, as Dr. Falk 
mentioned in his statement, for a lot of assistance on that 
kind of work.

                             ROLE OF ATSDR

    Senator Shelby. Dr. Falk, could you explain to us how ATSDR 
becomes involved in a community, and what their role is? 
Specifically, what has been your role in Anniston, Alabama?
    Dr. Falk. Let me say generally that ATSDR, as I mentioned, 
is an HHS agency. It was created as a result of the CERCLA 
legislation, for the purpose of working on health issues 
related to Superfund sites. We work very closely with EPA as a 
result, and we have cooperative agreement programs with a 
number of State health departments, including the Alabama State 
Health Department.
    At the same time, because we are with HHS, we are 
connected, for example, to other HHS agencies, and 
particularly, the CDC. The Administrator of ATSDR, who I report 
to, has always been the same person as the Director of CDC. So 
we work very closely with folks at CDC, and have a very good 
collaborative relationship.
    Let me say in terms of our role in Anniston, we have been 
supportive of the State health department. We have met many 
times with community groups. We have tried to assist on the 
particular issues that have been raised by the communities, 
such as evaluating all of the serum PCB levels that have been 
drawn; such as working on the lead projects; such as helping 
them through proposed health studies.
    I might add, if I could for a moment, in terms of health 
studies, that this committee has supported work which ATSDR has 
carried out over the last 10 years in the Great Lakes area, 
which is an extensive research program, that has released a 
number of reports and studies on the health effects of PCBs, so 
that the work that has been supported in that area has produced 
a large body of information on what the potential health 
effects are.
    I think in terms of health studies in Anniston at least for 
us, we would want to work very closely with the State and with 
the community to think through what would be the most 
appropriate health study, what would be most helpful to 
people----
    Senator Shelby. Does that include the CDC?
    Dr. Falk. Sure. As I said, we work with them regularly. I 
report basically to the same person as the director of CDC. For 
example, when we do laboratory work, as in Anniston, the serum 
samples are tested in the CDC, because we do not have our own 
lab to actually run those samples. So we work closely with them 
on a regular basis.
    Senator Shelby. Thank you.
    Thank you, Madam Chairman. I will wait for the next round.

                        RECUSAL OF EPA OFFICIALS

    Senator Mikulski. Yes. Thank you, Senator Shelby. We will 
come back to this.
    Mr. Meiburg, my first line of questions will really be with 
you, and then my second line will be to Dr. Falk.
    Know that, number one, I respect you when I said ``career 
civil servant at EPA who brings a great deal of professional 
expertise and experience,'' but I will tell you what I am 
troubled about. It seems like everybody is recused in this 
situation.
    Now, let me go through what is usual and customary at EPA. 
On a regular basis, to whom do you report?
    Mr. Meiburg. On a regular basis, I report to the regional 
administrator, in this case, Mr. Jimmy Palmer.
    Senator Mikulski. Why is he not here today?
    Mr. Meiburg. Mr. Palmer was recused on this case, because 
he worked in private practice--his background was that he was 
an executive director of the Mississippi Department of 
Environmental Quality for 12 years, from which he resigned in 
1999, and went into private practice as an attorney. While he 
was in private practice as an attorney, he represented a couple 
of the foundries which are in Anniston, and one of the issues 
in this case is the contamination in the Anniston community--
there is PCB contamination, but there is also some lead 
contamination. He was involved with these companies. He had 
been involved with the foundries. He had no connection with 
Solutia, per se. But the issue, just to finish up the point, is 
that the foundries and Solutia may have interests that are 
adverse to each other when it comes time to apportion 
responsibility for paying for the cleanup----
    Senator Mikulski. Okay.
    Mr. Meiburg [continuing]. And under the rules of the 
Mississippi Bar, he could not be involved in this case.
    Senator Mikulski. Okay. Now, to whom does Mr. Palmer 
report?
    Mr. Meiburg. Mr. Palmer reports to Governor Whitman.
    Senator Mikulski. To whom?
    Mr. Meiburg. To Governor--to the Administrator.
    Senator Mikulski. Does not Mr. Palmer report to Linda 
Fisher, who is the Deputy Administrator?
    Mr. Meiburg. Linda Fisher is the Deputy Administrator.
    Senator Mikulski. To whom do the regionals report? Do they 
all report to Administrator Whitman----
    Mr. Meiburg. Yes, they do.
    Senator Mikulski [continuing]. Or do they report to 
Administrator Whitman through Linda Fisher?
    Mr. Meiburg. They report directly to the Administrator. 
Obviously, the Administrator and the Deputy Administrator work 
together very closely on all matters affecting the agency.
    Senator Mikulski. What is the role of the Deputy 
Administrator, Linda Fisher, normally, in working with the 
regions?
    Mr. Meiburg. The Deputy Administrator normally is almost 
the chief operating officer, and handles a lot of the day-to-
day matters that affect the agency. Regional administrators 
have a great deal of flexibility and discretion under EPA's 
organizational structure, but they work together closely as a 
team.
    Senator Mikulski. Now, why did Linda Fisher not come today?
    Mr. Meiburg. Linda Fisher is recused on this case, because 
she worked for Monsanto in the 1990s.
    Senator Mikulski. So here we are with Region 4, in Atlanta. 
One of the biggest environmental cases is Anniston, Alabama. It 
has been a lingering issue for a number of years, and the 
regional administrator cannot do anything about it, because he 
is recused. I honor the legal recusing, but it means that we 
have essentially appointed somebody to head Region 4 that 
cannot do anything about Anniston.
    Then the deputy helper to Administrator Whitman is also 
recused, because they worked for Monsanto. Well, this is just 
loaded with conflict of interest here.
    I am not going to ask you to comment. You are a 
professional civil servant.
    But, Senator Shelby, I just wanted to bring this to your 
attention. I am----
    Senator Shelby. You are absolutely right.
    Senator Mikulski. I am very troubled about this, that 
nobody can do anything, because they are recused, because of 
what-all they were doing. Now, I am going to ask the second 
one.
    So who is in charge of Anniston, Alabama? Who can come in 
with clean hands, and not be recused over this, and excused 
over that? Is it you, Mr. Meiburg?
    Mr. Meiburg. Senator, I have the day-to-day decision-making 
responsibility.
    Senator Mikulski. Are you in charge of this?
    Mr. Meiburg. Yes, ma'am.

                        AUTHOR OF CONSENT DECREE

    Senator Mikulski. Now, who is the architect of the consent 
decree?
    Mr. Meiburg. The consent decree was negotiated between the 
Justice Department, and, obviously, with our considerable 
involvement, and Solutia, to come up with a good consent decree 
in this case.
    Senator Mikulski. So who was the architect of the consent 
decree, the Department of Justice, or EPA?
    Mr. Meiburg. I think the best answer to that would be: The 
EPA is the one who was responsible for working on the terms of 
the consent decree, and the substantive terms, and they got 
legal assistance in this matter, as in all the matters that we 
are involved in, legally from the----
    Senator Mikulski. And that is you?
    Mr. Meiburg. I did not negotiate the consent decree on a 
daily basis, but supervised the----
    Senator Mikulski. But who was the architect of the elements 
of the consent decree? Was it you, or was it someone else? And 
if there was, who was the ``someone else''?
    Mr. Meiburg. I want to make sure I am properly responding 
to your question.
    Senator Mikulski. Well, let me tell you what I mean by 
``the architect.'' The architect is the one who designs the 
framework. It could be a building; it could be a social 
program. They are the designers. Then they bring in the lawyer, 
or the title settlement guy, or whatever.
    So I am asking you: Who was the architect of the content of 
the consent decree?
    Mr. Meiburg. This may not answer your question, but if it 
doesn't, I will try to respond more----
    Senator Mikulski. Yes, please----
    Mr. Meiburg [continuing]. Precisely.
    Senator Mikulski [continuing]. To the best of your ability. 
Remember, this is not a spring hazing. I am trying to parse 
this out, coming back to what troubles me here. Go ahead.
    Mr. Meiburg. Thank you, Senator.
    The architect, or the plan that we followed in issuing this 
consent decree is, in fact, the national contingency plan that 
we use in conducting Superfund cleanups. And to the extent that 
there is an architect that we followed, or a blueprint that we 
followed in constructing the consent decree, it was the 
national contingency plan, our objective being----
    Senator Mikulski. That is the architecture, but who was the 
architect? Was that you, or was it Palmer, or was it Fisher, or 
was it Whitman, or was it somebody else?
    Mr. Meiburg. To the extent that there is a responsible 
official for the consent decree--the Administrator is not 
recused. She is aware of this particular situation. But to the 
extent that there is an individual who would bear primary 
responsibility, that would be me.
    Senator Mikulski. Okay. Then who did you get the sign-off 
from? I mean, did you call Administrator Whitman, talk to her, 
say, ``This is what we are doing on Anniston, Alabama''? Again, 
I am not being sarcastic, please.
    Mr. Meiburg. No, I understand. We consulted in our own 
organization, with our Assistant Administrator for Solid Waste 
and Emergency Response, which is Marianne Horinko. We consulted 
with our Counsel's office. We consulted with the Department of 
Justice, to all get signed off on the decree.
    Senator Mikulski. That is the national contingency.
    Mr. Meiburg. Yes, ma'am.
    Senator Mikulski. Did Palmer have to sign off on anything?
    Mr. Meiburg. No, ma'am.
    Senator Mikulski. Would he ordinarily have signed off, and 
would he ordinarily have been the person in charge?
    Mr. Meiburg. Yes, ma'am.
    Senator Mikulski. But he had to be recused. Would Fisher 
have been involved in working with this, but she had to be 
recused? So, therefore, did this consent decree and its basic 
content go directly to Administrator Whitman?
    Mr. Meiburg. Administrator Whitman has been briefed on the 
general situation with respect to Anniston, but she has not 
reviewed the terms of the consent decree.
    Senator Mikulski. So who has? Just you?
    Mr. Meiburg. I have; the Justice Department has; my own 
legal staff; my Regional Counsel; my Waste Management Division 
has been involved in reviewing those things, yes, ma'am.
    Senator Mikulski. Is that a usual way for a deputy 
administrator in the region?
    Mr. Meiburg. Yes, ma'am, it is. It is not at all unusual in 
regional offices that deputy regional administrators or 
regional administrators are involved in large complex sites.
    Senator Mikulski. Well, I want to go to a second round.
    But, Senator Shelby, do you see the point that I was 
getting at here?
    Senator Shelby. Absolutely, Madam Chairman. I think that 
was an excellent point, and I will still pick up on that. I 
have some questions, too, on that area, but you got into it 
before I did.
    Senator Mikulski. But I am going to turn to you for a 
second round. I just want to ask one other question of Mr. 
Meiburg. I think we might have to just hold a hearing on 
regions, and who is in charge, and delegation.
    Senator Shelby. And who is responsible for this? In other 
words, who is responsible for this?

                      SUPERFUND SITE DESIGNATIONS

    Senator Mikulski. That is exactly right. This is with great 
respect to Mr. Meiburg, and the professional expertise he 
brings, but behind so many people. There are so many conflicts 
of interest. From the deputy administrator, to the Regional 
Administrator, who has to recuse on this and has to recuse on 
that, I feel it is very troubling, and actually 
uncharacteristic of the administrator.
    But here is my question: Why has not Anniston gone to 
Superfund? Because we have seen potholes go in the Superfund 
site faster.
    Mr. Meiburg. Senator, the reason that this is not on the 
National Priorities List is because we have been able to 
achieve through this consent decree all of the steps that we 
would have taken had we listed the site on the National 
Priorities List.
    We have had, I know, different opinions on this within the 
community, but there is some significant representation we have 
had from the leadership of the community expressing concern 
about that. The part the community is united on is that 
everyone wants the cleanup to proceed as quickly, and as 
expeditiously, and as scientifically and technically sound a 
way as possible. We believe this consent decree gives us the 
ability to do that, and do everything we would do if it were 
listed on the NPL.
    Senator Mikulski. Are you telling me that you would do 
everything--that the consent decree is a substitute for 
declaring Anniston, or spots in Anniston, a substitute for a 
Superfund site, for a designation? When you use the National 
Priority List, that is really the official term for Superfund, 
am I correct?
    Mr. Meiburg. Yes.
    Senator Mikulski. So you are using the consent decree as 
kind of a proxy for a declaration of a----
    Mr. Meiburg. That is correct.
    Senator Mikulski. But in a Superfund site, or national 
priority list, is not a geographic area the usual and customary 
designated area? And in this consent decree you are only doing 
hot spots?
    Mr. Meiburg. Senator, in the consent decree--and it speaks 
to Senator Shelby's question about comprehensive--the point of 
the remedial investigation feasibility study is to look at the 
entire area affected by the site, which can go all the way down 
into Choccolocco Creek, and down into Lake Logan Martin. So it 
is really a very broad and extensive area that is being 
studied.
    Senator Mikulski. Well, I have other questions.
    But, Senator Shelby, why do you not pick up for a second 
round?

                             CONSENT DECREE

    Senator Shelby. Thank you, Madam Chairman.
    Let us go back to the consent decree, and who was involved 
in it. The Chairman here was asking a very important question. 
If you have so many conflicts here and there, what we would 
like to know for the record--and you can furnish this to the 
committee; you might not have it today--step by step, is: Who 
was involved in the creation from EPA's standpoint, and 
Justice's standpoint, in this consent decree? Was it people who 
later recused themselves from testifying, or from maybe signing 
off on it finally, but had input into this?
    One of the real problems in Anniston, honestly, and the 
Chairman, Senator Mikulski, touched on this very deeply, is 
trust. Do the people have any trust and any faith in this 
situation, in other words, in the problem being cleaned up, as 
it should be in Anniston, Alabama?
    That is part of the problem here, and then this is 
exacerbated by the idea of so many people having conflicts. So 
we would like to know who was involved in the creation of this 
consent decree.
    You know the old story, the fox watching the hen house. 
Gosh, these could be some big foxes there watching the hen 
house, or maybe they were involved in this architecture, this 
consent decree. Maybe they were. I do not know that. But for 
the record, I think we want to know, because trust goes right 
to the bottom of it, and there is no substitute for it.
    How can we today, or how can you, as representing the EPA, 
assure the people at Anniston, Alabama, or any other site 
around the country, that this is not going to be a sham 
cleanup, that this is not going to be somebody who can walk 
away from it, and so forth?
    I think that is a very important question, because they 
have no faith. They would have no faith in a sham cleanup, 
because they have seen what is going on before, where facts 
were hidden from the people over the years, not just by the 
Federal agency, but by the State agency, and by the company, 
the perpetrator itself, after they knew all these things.
    Do you understand where I am coming from, sir?
    Mr. Meiburg. Yes, sir, I think I do. Let me try and address 
the two questions about who was involved----
    Senator Shelby. Sure.
    Mr. Meiburg [continuing]. In the negotiation of the consent 
decree, and then the larger question of trust.
    Senator Shelby. All right.
    Mr. Meiburg. In terms of the negotiation of the consent 
decree, the staff who work in Region 4, our attorneys and our 
technical staff, as well as the Department of Justice staff, 
who follow standard models that we use in negotiating consent 
decrees, were the ones who were involved, and who negotiated 
this consent decree.
    If you need exact names, I would have to supply that for 
the record. But it was a staff-driven, staff-led process in 
working with the company, as we do in many, many Superfund----
    [The information follows:]
          Staff Involved in the Creation of the Consent Decree
U.S. Environmental Protection Agency
    Stan Meiburg, Region 4, Deputy Regional Administrator, (acting RA 
from January 21, 2001 until January, 2002)
    Marianne Horinko, Assistant Administrator for Solid Waste and 
Emergency Response
    Phyllis P. Harris, Regional Counsel and Director of Region 4, 
Office of Environmental Accountability
    Richard Leahy, Chief of the Office of CERCLA Legal Support in 
Region 4.
U.S Department of Justice
    Thomas L. Samsonetti, Assistant Attorney General for the 
Environment and Natural Resources Division

    Senator Shelby. Sir, did anybody that later recused 
themselves because of conflicts have any input at all, one 
scintilla of input into this decree?
    Mr. Meiburg. No, sir.
    Senator Shelby. You mean everybody was just as clean as a 
whistle; is that what you are saying?
    Mr. Meiburg. That is correct.
    Senator Shelby. That means nobody had any conflict.
    Mr. Meiburg. I have had no discussions on this consent 
decree with anyone who has recused themselves on this case.
    Senator Shelby. Well, you said you did not, but what about 
other people? Do you know that?
    Mr. Meiburg. Not to the best of my knowledge.
    Senator Shelby. Well, is it not very important, going back 
to trust again, that people believe that this decree is above--
that this consent decree, this decree by agreement, that it is 
meaningful, it is comprehensive, and it is going to do the job? 
In other words, that it is not in any way a sham?
    Mr. Meiburg. Yes, that is very important, that it speaks to 
your larger issue of trust. My own sense is that trust is 
something that takes a very long time to build, and it is----
    Senator Shelby. In this case, it is going to have to be 
built by the deed, not the word, right?
    Mr. Meiburg. Yes, sir. That is exactly right.

                               PCB LEVELS

    Senator Shelby. All right.
    Dr. Falk, I was asking you some questions earlier. We heard 
time and again that the PCB levels in the blood of the 
residents in Anniston are higher than normal. Could you explain 
to us what is considered normal, and then compare and contrast 
that with the levels of Anniston residents?
    If you could go a step further, if you could, tell us why 
high PCB levels in someone's blood is bad. You have the 
technical ability to do that.
    Dr. Falk. Okay. I think going back to the late 1970s, and 
based on the distribution of blood levels of PCBs in the 
population, the level of 20 was considered to be elevated, 20 
parts per----
    Senator Shelby. The level of 20.
    Dr. Falk. Yes, 20 parts per billion----
    Senator Shelby. Per 1 billion?
    Dr. Falk [continuing]. Yes, in the blood serum was 
considered elevated. Now, recognizing that, since the PCBs were 
no longer in production and slowly decreasing in the 
environment over the years, we think that the background levels 
in the population have correspondingly diminished over that 
time.
    Senator Shelby. Excuse me. You said ``we think.'' What do 
you know, not what you think?
    Dr. Falk. Sir, let me----
    Senator Shelby. Okay.
    Dr. Falk. In our toxicology profile, in which we summarize 
this information, the background levels from more recent 
studies seem to be in the range of between, let's say, three 
and eight, or three and ten parts per billion.
    So we are hoping that later this year, when the data from 
the National Health and Nutrition Examination survey comes 
forth, we will have a better randomly selected representation 
of the national population--I mean we have a good comparison 
level, but we think it has probably been coming down from that 
twenty level towards about ten.
    Senator Shelby. When was it in the 20 level?
    Dr. Falk. That was in the late 1970s, when----
    Senator Shelby. In the Anniston area?
    Dr. Falk. No. That is what we would consider elevated----
    Senator Shelby. Okay.
    Dr. Falk  [continuing]. In general. Now, I think among 
Superfund sites across the country, the levels that we see in 
Anniston, in people, are probably considerably higher than in 
most any of the sites.
    Senator Shelby. Say it again. You are saying, as I 
understand it--and these are your words, and you correct me if 
I am wrong----
    Dr. Falk. Yes, sir.
    Senator Shelby [continuing]. That in the Anniston area, 
that it has a high--the people have a higher level of PCBs in 
their blood.
    Dr. Falk. Yes. For the group, the average level is higher, 
peak levels are higher, the range is higher. Not every person--
--
    Senator Shelby. I understand that.
    Dr. Falk [continuing]. But the average is higher. For 
example, I think I may have mentioned this quickly before, but 
in the very first evaluation of the first 103 people done in 
1995, 1996, by the Alabama Department of Public Health, the 
average level of those 103 people was 24. So you see, the 
average level was above what we would consider elevated.
    Senator Shelby. And it would be higher elevations in 
certain areas of Anniston where people lived, as opposed to--
you know, it is a big county, Calhoun County. Is it everywhere, 
or do you know?
    Dr. Falk. Well, the elevations are in relation to----
    Senator Shelby. The population.
    Dr. Falk. In West Anniston, in relation to the site. I 
think the complexity for us, and the reason why I am personally 
pleased to hear you speak in terms of comprehensive evaluation, 
is that sometimes when we have, let us say, a release from a 
plant, you see a very steady but very clear change, in relation 
to distance--and I think in Anniston, it is not quite so clear. 
There are spots where the levels are higher. There are spots 
where the levels are lower.
    It is not--it is not always easy to predict for any 
particular yard or person exactly what that PCB level would be. 
So I think one actually, in Anniston, does have to do a very--
--
    Senator Shelby. A comprehensive evaluation would bring all 
that out, would it not?
    Dr. Falk. Yes. Exactly.

                   HEALTH EFFECTS OF HIGH PCB LEVELS

    Senator Shelby. Sir, what does a higher level of PCBs in 
the blood serum mean? What is the significance of that?
    Dr. Falk. Sometimes we have chemicals at Superfund sites 
that cause very distinctive abnormalities. So, for example, we 
have the Superfund site where there is asbestos exposure, and 
one can see very characteristic changes in the lungs. So it is, 
you know, one-to-one, a very tight relationship between 
exposure and the particular health effects seen.
    What we have learned with PCBs, and this relates not just 
to the work that we have done in the Great Lakes project, but 
that others have done as well, is based both on animal studies 
and also based on human studies. There are concerns about 
neurobehavioral, developmental effects in the young. There are 
concerns----
    Senator Shelby. Developmental effects of babies and 
children, right?
    Dr. Falk. Learning----
    Senator Shelby. Learning disabilities.
    Dr. Falk. Yes. And they are not distinctive or they are not 
different from many impediments that might occur for other 
reasons, but statistically, one sees a greater likelihood. The 
same thing has been reported for immunologic function. We see 
changes in immunologic tests, but not a single specific----
    Senator Shelby. Weakening of the immune system?
    Dr. Falk. Weakening of the immune system. There are 
concerns about the----
    Senator Shelby. What about the unborn? What about----
    Dr. Falk. I think the developmental effects----
    Senator Shelby. Do you think that is there?
    Dr. Falk. The development effects start with studying the 
effects in utero, where the mothers have been exposed to PCBs, 
and that is clearly the very vulnerable period.
    What I am trying to say is that there are effects that are 
seen. They are not, in most cases, distinguishable from similar 
effects that might be seen for other reasons, but they occur in 
increased rates.
    Senator Shelby. Thank you.
    Thank you, Madam Chairman. I will wait for the others.

                          TIMING OF EPA ACTION

    Senator Mikulski. Those were excellent lines of 
questioning, Senator Shelby, and in many ways paralleled my 
own.
    Mr. Meiburg, let me come back to EPA. Essentially, my 
questions are: What took EPA so long? On page four of your 
submitted testimony, you go into describing the activities of 
EPA. The last paragraph says, ``Over the years, EPA has 
attempted to work closely with ADEM,'' which is the Alabama 
Department of Environment, ``and other agencies to maximize the 
resources the government is able to bring to bear in Anniston. 
EPA and ADEM followed a basic division of labor for Anniston, 
with the State taking the lead role in the remediation of the 
Solutia plant property, while EPA handled all other areas.''
    Well, when did EPA become actively involved in Anniston? 
Could you give me a chronology? And then why did it take from 
all of these years, that--I know the community has been active, 
and raising concerns, and taking it to Alabama--that we do not 
get a consent decree until March 25, 2002?
    Mr. Meiburg. Senator, I can supply a detailed chronology 
for the record. But the larger question you have asked, ``Why 
did it take so long,'' is probably the most difficult question, 
as I look back on it. And I think it is fair to say that if we 
knew--if we had known some years ago what we now know about the 
site, then I think the course of action might have been 
different.
    Our specific involvement really dated from 1999. We had 
requests in the mid-to late 1990s, particularly from citizens 
there who were pointing out that the extent of the 
contamination, they believed, was more extensive than had 
previously been looked at.
    I think that it is fair to say that--up to that time, that 
generally the view had been that there was contamination in--
going from the plant, down into Snow Creek, down to Choccolocco 
Creek, and into Lake Logan Martin, along the watercourse, and 
that the extent of the contamination throughout the 
neighborhoods and the surrounding area, and flood plains, I 
think came as a bit of a surprise to us.
    And the Alabama Department of Environmental Management, 
asked us to help come in in 1999, when they were not able to 
address some of the questions they wanted to get answered 
through the terms of their RCRA permit. And then we had the 
request from the Governor of Alabama in 2000 as well. So 
really, our most active involvement there at the site, under 
the Superfund program, dates from the mid-1999 period.
    [The information follows:]

                      ANNISTON PCB SITE CHRONOLOGY
------------------------------------------------------------------------
                   Dates                            Actions taken
------------------------------------------------------------------------
1979-1980.................................  Eckhardt Report (Waste
                                             Disposal Site Survey)
                                             released citing Monsanto's
                                             Anniston Plant Landfill as
                                             a facility which handled
                                             hazardous waste.
                                            ADEM prepares CERCLA
                                             Preliminary Assessment and
                                             Site Investigation reports
                                             on the Anniston Plant
                                             Landfill.
1980-1981.................................  Monsanto submits RCRA Part A
                                             Application and is granted
                                             RCRA interim status to
                                             continue operating.
1982-1983.................................  EPA file review and
                                             preliminary CERCLA Hazard
                                             Ranking System scoring.
                                             Based on available data,
                                             preliminary score is below
                                             threshold score for
                                             proposal on National
                                             Priorities List.
1984......................................  EPA requests RCRA Part B
                                             permit application
                                             including facility-wide
                                             groundwater investigation.
1985......................................  Monsanto submits Part B
                                             permit application for EPA/
                                             ADEM review and comment.
                                            Alabama Attorney General
                                             discloses PCB contamination
                                             in Snow Creek; EPA defers
                                             cleanup of Snow Creek to
                                             ADEM.
                                            EPA issues RCRA 3008(a)
                                             Order to Monsanto for
                                             failure to implement on
                                             site groundwater monitoring
                                             program consistent with the
                                             RCRA regulations.
                                            ADEM conducts CERCLA
                                             Preliminary Assessment
                                             recommending ``no further
                                             action'' based on status as
                                             active RCRA-regulated
                                             facility.
1986-1987.................................  Monsanto submits ``Snow
                                             Creek Sediment Removal
                                             Protocol'' to ADEM.
                                            EPA and ADEM jointly issue
                                             RCRA permit to Monsanto.
1987-1990.................................  Monsanto continues to
                                             implement requirements of
                                             RCRA Part B permit
                                             including closure
                                             activities, groundwater
                                             monitoring, and development
                                             of groundwater corrective
                                             action systems.
                                            Monsanto implements Snow
                                             Creek sediment removal.
1991......................................  EPA conducts RCRA Facility
                                             Assessment identifying
                                             solid waste management
                                             units and areas of concern.
1993......................................  ADEM conducts investigation
                                             of PCB contamination in
                                             Snow and Choccolocco
                                             Creeks.
                                            ADPH issues ``no consumption
                                             of fish'' advisory for fish
                                             caught in Choccolocco Creek
                                             between Snow Creek and Lake
                                             Logan Martin.
1994......................................  ADEM conducts Preliminary
                                             Assessment on West End
                                             Landfill.
                                            EPA defers action to ADEM
                                             pursuant to the RCRA
                                             deferral policy.
1995......................................  ADPH and ATSDR conduct
                                             exposure investigation and
                                             health consultations in
                                             February and October.
                                            ADEM negotiates Consent
                                             Order with Monsanto to
                                             determine if PCB releases
                                             have occurred. As a result
                                             of the studies Monsanto
                                             initiates property buyouts
                                             and a relocation program in
                                             residential areas adjacent
                                             to and east of the
                                             facility. Monsanto
                                             constructs sediment pond
                                             and other stormwater runoff
                                             control devices to mitigate
                                             flooding and further
                                             transport of contaminated
                                             sediments in these areas.
1996......................................  ADEM issues second Consent
                                             Order requiring additional
                                             characterization of off-
                                             site contamination; design
                                             and construction of
                                             additional run-off controls
                                             and acquisition of
                                             additional adjacent
                                             properties north of the
                                             facility.
1997-1999.................................  Monsanto Company formed
                                             Solutia Incorporated.
                                            Monsanto implements on-site
                                             control measures and
                                             investigation of off site
                                             contamination as required
                                             by the RCRA Part B permit
                                             re-issued by ADEM.
                                            EPA Administrator Carol
                                             Browner received letter
                                             from the West Anniston
                                             Environmental Justice Task
                                             Force, now known as
                                             Citizens Against
                                             Pollution(CAP), asking for
                                             EPA action in regard to PCB
                                             contamination in Anniston.
1999......................................  Solutia continues
                                             investigatory and control
                                             measures required under the
                                             permit.
                                            ADEM requests EPA take lead
                                             role in ``remote'' off-site
                                             remediation areas under
                                             CERCLA. (areas unrelated to
                                             the drainage pathways of
                                             Snow and Choccolocco
                                             Creeks).
                                            Data summaries of extensive
                                             soil and blood serum
                                             sampling, indicating
                                             widespread PCB
                                             contamination in west
                                             Anniston, is submitted by
                                             plaintiffs attorney. This
                                             data was collected as
                                             evidence in a lawsuit filed
                                             againstSolutia.
2000......................................  EPA opens Community
                                             Relations Center in
                                             Anniston and initiates
                                             removal assessment through
                                             extensive sampling.
                                            ADEM responds to soil
                                             disturbance activities at
                                             various PCB-impacted areas
                                             in the floodplains of Snow
                                             and Choccolocco Creeks by
                                             requiring Solutia to
                                             perform corrective actions
                                             in these areas under the
                                             RCRA permit.
                                            Governor Siegelman sends
                                             letter to President Clinton
                                             requesting federal
                                             assistance in remedying the
                                             environmental contamination
                                             and human exposures in
                                             Anniston.
                                            EPA finalizes AOC to require
                                             Solutia to continue
                                             sampling and cleanup of
                                             residential properties to
                                             address short-term risks.
                                            EPA funds Southeast PEHSU at
                                             Emory University to assist
                                             with Continuing Medical
                                             Education in Anniston,
                                             Alabama. Key focus areas
                                             are medical education and
                                             training, telephone
                                             consultation, and clinical
                                             specialty referral for
                                             children who may have been
                                             exposed to
                                             environmentalhazards.
2001......................................  EPA begins negotiations with
                                             Solutia and Pharmacia
                                             (formerly Monsanto) on
                                             Remedial Investigation/
                                             Feasibility Study for off-
                                             site areas to addresslong-
                                             term risks.
                                            Solutia initiates first
                                             cleanup at a residential
                                             property. Other similar
                                             actions were delayed due to
                                             denial of access.
                                            EPA revises AOC to expand
                                             sampling and cleanup areas.
                                            EPA Environmental Response
                                             Team issues Final Summary
                                             of Technical Review and
                                             Evaluation of Potential PCB
                                             Releases. The report is an
                                             independent evaluation of
                                             on-site work to date. The
                                             report indicates several
                                             areas where additional
                                             study and/or work should be
                                             done.
                                            ADEM continues to require
                                             Solutia to address on-site
                                             and off-site contamination
                                             through the RCRA permit.
2002......................................  March 25, EPA lodges Consent
                                             Decree in Federal Court in
                                             Birmingham
                                            April 4-June 3, public
                                             comment period on Consent
                                             Decree
                                            United States will provide
                                             the comments and responses
                                             to comments to the Court
                                             upon completion of the
                                             comment period and ask the
                                             court to (1) enter the
                                             Consent Decree in its
                                             current form, (2) withdraw
                                             the Consent Decree, or (3)
                                             seek to modify the Consent
                                             Decree based on the
                                             comments.
------------------------------------------------------------------------
Acronyms:
  ADEM--Alabama Department of Environmental Management
  ADPH--Alabama Department of Public Health
  AOC--Administrative Order on Consent
  ATSDR--Agency for Toxic Substance and Disease Registry
  CERCLA--Comprehensive Environmental Response, Compensation, and
  Liability Act (also known as Superfund)
  EPA--Environmental Protection Agency
  PCB--Polychlorinated biphenyls
  PEHSU--Pediatric Environmental Health Specialty Unit
  RCRA--Resource Conservation and Recovery Act


    Senator Mikulski. Well, then I am confused about your 
testimony, and your written testimony. I am going to go to 
this, because this goes to where there is EPA and where there 
is not EPA.
    According to page two of your testimony, it says, ``EPA's 
involvement with the cleanup activities parallel the evolution 
of the Federal laws regarding disposal cleanup of hazardous 
waste.'' This was pretty much when Senator Shelby and I were 
over in Energy and Commerce.
    And Senator, you recall, Jim Florio was the chairman of 
that subcommittee----
    Senator Shelby. Right.
    Senator Mikulski [continuing]. And we were working on this.
    Senator Shelby. He comes from New Jersey.
    Senator Mikulski. Yes. That is right.
    But it says--when this was all being developed, it says, 
``EPA first became involved with this facility in the late 
1970s, when they were looking at the legal structures for 
hazardous waste. In the early 1980s, EPA worked with the State 
of Alabama to determine how and under which program to best 
address the facilities at Monsanto and Anniston.''
    It says the 1970s, the 1980s.
    Again, according to the written testimony, ``Between 1980 
and 1985, the facility applied for an application for an 
operating permit,'' like lots of industrial facilities.
    I have some of those facilities in my own State. I know 
that is a tough--normally, it is a tough application process, 
as it really should be, because it is to do prevention. In 
other words, it is tough to get a permit so that you do not get 
into the jackpot of pollution.
    In 1986, Monsanto got a permit from EPA and ADEM. So they 
got a permit to operate, while all this stuff was going out of 
the plant into the community. ``In 1985, the Alabama Attorney 
General's Office informed EPA that contamination in nearby Snow 
Creek was caused by releases of PCBs from Monsanto.'' The AG of 
Alabama, in 1985, said this stuff is leaking; the AG.
    Later, ``following discussions with the Alabama AG, ADEM 
and EPA, Federal action regarding Snow Creek was deferred to 
the State.'' 1988, submitted a cleanup plan. They removed 1,000 
tons. I could go on.
    This, sir, is not 1999. Where was EPA? Either responding to 
the needs of Anniston on the oversight that they provided to 
the region, and the region to the Alabama Department of 
Environmental Management--I presume that is what the ``M'' 
stands for.
    Mr. Meiburg. Yes. That is correct.
    Senator Mikulski. Based on this, we were in it. We were in 
it. The Attorney General of Alabama was in it. Requesting 
Federal help in it. But where was EPA?
    Mr. Meiburg. Senator, generally, the State agency, in 
looking at this--and I think my testimony attempted to reflect 
this--addressed this primarily during the years leading up to 
1999.
    Senator Mikulski. When did you come to Region 4?
    Mr. Meiburg. In 1996.
    Senator Mikulski. Okay. So you have been there--so I am 
going back historically. The intention in my question--can you 
understand how I look at this?
    Mr. Meiburg. Yes.
    Senator Mikulski. It is that, according to this, the 
chronology of your own testimony says EPA knew about this, EPA 
was involved with the highest level of the legal community in 
Alabama, and the legal enforcement, in terms of the attorney 
general who himself asked for help on Snow Creek, and Snow 
Creek was both literally and metaphorically what was happening 
in other hot spots around Anniston. Nothing, nothing. Divisions 
of labor between EPA and ADEM. Nothing. Nothing.
    In the meantime, this is leaking, hemorrhaging all the 
while into the community, into the playgrounds, into gardens, 
into creeks, into communities. People had brain tumors. 
Children were born with defects. Young men were dying. And it 
is hard enough in this world for young black men to survive, 
let alone when EPA is still doing divisions of labor.
    Well, whatever way you divided those labors did not seem to 
work. When you got there in 1996, did you find under every rock 
there was another rock, and under that rock was PCBs?
    Mr. Meiburg. Senator, I think that probably the best way to 
answer your question is that it is absolutely true that the 
State has known about the site. It has known about particularly 
the landfills and other areas where PCB production had 
occurred, which ceased in 1971, but where PCB production 
occurred, that the landfills were there, and they needed to be 
remediated.
    There was a substantial amount of activity that went on 
during the 1990s on the facility site itself to try to cap the 
landfills and stop the migration off the site into the 
community itself. That went on under the authority of RCRA 
during the 1990s as part of the permit process that you 
mentioned, and part of the corrective action. So there were 
actions that were taken to try to limit the further releases.
    The thing that I think is the most new to us was the 
extent, the geographical extent within the community itself, 
and that really did not come to our attention until the mid-to 
late 1990s.
    Senator Mikulski. Well, time is moving on, and we want to 
hear from Alabama, and the Department of--as well as the 
people, but I have just a few other questions, and then a final 
round by my colleague.

                     TIMING ON ATSDR PARTICIPATION

    Dr. Falk, we are talking now about public health, and also 
when the agencies got in. When and how did ATSDR become 
involved in the Anniston situation?
    Dr. Falk. Yes, I came to ATSDR in 1999. My understanding is 
that the agency became involved in 1995 by working with our 
cooperative agreement partner, which is the Alabama State 
Health Department.
    ATSDR becomes involved working on health issues, basically, 
through three primary ways.
    One is a site is declared a Superfund site, if it is on the 
NPL list. We have to evaluate those sites. That triggers ATSDR 
involvement. Second, is if there is a petition request that 
comes into the agency, and we evaluate petitions to look at 
sites. We roughly----
    Senator Mikulski. You mean citizen petitions?
    Dr. Falk. Citizen petitions. Under the CERCLA legislation--
--
    Senator Mikulski. That is right.
    Dr. Falk [continuing]. Citizens can petition.
    Senator Mikulski. The right to know, the right to be heard, 
the right----
    Dr. Falk. Exactly.
    Senator Mikulski [continuing]. To be protected.
    Dr. Falk. We respond to all the petition requests, and we 
follow up on and investigate about 50 percent of those that 
come in. So I am presuming that there was no formal petition at 
this site before 1995, and I am assuming that.
    The third way in which we become involved is if we are 
alerted to the site either by State partners, or local 
officials, or EPA, or somebody else. So I am assuming that in 
1995, the initial involvement came by way of the Alabama State 
Health Department.
    In terms of my own involvement, when I came to ATSDR on in 
1999, as I mentioned, we received the request from the 
community that had already, working among themselves, and with 
their advisors, received blood samples on these 2,970 people, 
and they had developed that information themselves and 
requested ATSDR assistance in its evaluation.
    This is not--let me say, this is not the usual course for 
ATSDR engagement at a site. Usually, we consider the need for a 
health study; we go out and we discuss it with the community, 
the health department. And then we say, ``Let us do a health 
study. Let us design it. Let us get input,'' and so on.
    In this case, this was unusual, and for me coming on 
relatively new, that there was material on a substantial number 
of people, including blood tests----
    Senator Mikulski. That the community themselves had 
developed.
    Dr. Falk. The community themselves had developed it.

                        ACTIONS BY THE COMMUNITY

    Senator Mikulski. It shows how desperate they were, because 
this is a very costly, and expensive, and technical process. So 
a poor African-American, a poor--of modest means, obviously not 
poor in spirit, you know, obviously not poor in spirit, had to 
go somewhere where there was no government anywhere to help 
them get their blood test, that they knew about.
    Dr. Falk. Right. But they did----

                             HEALTH STUDIES

    Senator Mikulski. I am not finger pointing at you.
    Well, let me go on here, because we do want to--we have to 
move on to the other witnesses.
    I note that in the consent decree that the decree does not 
require Solutia to fund health studies. And I want to be clear, 
because each and every--both of you gentlemen have used 
``medical treatment,'' and I am not parsing words here, because 
they are two distinct things, and Dr. Falk has both an M.D. and 
a masters of the public health. You know what I am talking 
about.
    Treatment is provided in physician and clinical services, 
but the public health studies are ordinarily provided or 
mandated by government to know what kind of treatment people 
need, and to provide ongoing evaluation to see if the situation 
is getting worse or better, the classic epidemiology done by 
public health agencies.
    Do you believe that there is--that we need to have ongoing 
health studies of this community? And who then should provide 
it, since nobody asked Solutia to do it?
    Dr. Falk. There are several things I would like to say 
about that. First off, one can, knowing the serum PCB levels, 
and what is known about PCBs, at least understand what the 
potential effects might be.
    One of the issues, which I think is very important, is 
fully characterizing what the PCB levels are in everybody, and 
what the extent is. That gets back to the issue of 
comprehensive. If one does not know that somebody--if somebody 
has never been tested for PCB levels, one does not know that 
they have been exposed, et cetera. So that is one issue that I 
think it is very important to fully characterize, so people 
will understand whether they have been exposed, they carry 
PCBs, or not.
    The second issue is: Health studies can be done for 
different purposes. They can be done for purposes of research. 
Can we learn more about the health effects of PCBs? I think 
that is one issue that could certainly be looked at. In a 
sense, can we learn something here that we have not learned in 
other places? And second, can it help the community understand 
what the potential effects are in terms of assessing what the 
effects are in the community?
    I think we stand very ready----
    Senator Mikulski. So where are we coming with those three 
things? We are not going to do research.
    Dr. Falk. Right. So we would be very ready--I mean we have 
tried to do this----
    Senator Mikulski. Very ready to do what?
    Dr. Falk. To work with the community, work with the State--
--
    Senator Mikulski. To do what?
    Dr. Falk  [continuing]. In conducting any health studies 
that would be appropriate. Health studies can take a long time. 
Health studies can be complicated in an area like this, where 
one is looking for statistical increases. I think we would be 
prepared definitely to work with the community, and work with 
the State health department to design such a study, if that----
    Senator Mikulski. And no one has asked you to do it? Do you 
have the authority to volunteer and be entrepreneurial, to say 
``This is what we could do,'' and convene your own meetings?
    Dr. Falk. We do, act as--you say entrepreneurial, or make 
opportunistic suggestions, but I think you cannot do a health 
study without the participation of everybody in the community. 
I think in a situation like this, in a very complex situation, 
it really----
    Senator Mikulski. ``Everybody in the community'' are the 
residents, in my mind. That ``everybody in the community'' is 
not government. So if they are ready to go, then we will talk 
more about that.
    Dr. Falk. We would be happy to work with them on that.
    Senator Mikulski. Thank you, Dr. Falk. I have other 
questions, but we really have to get to the second panel.
    I am going to afford you----
    Senator Shelby. That would be great.
    Senator Mikulski [continuing]. Another round, Senator. But 
I must say, I am troubled that the decree does not require the 
Solutia to fund health studies, and that the decree does not 
order wide-scale cleanup that is a hotspot-focused one. And I 
am very troubled by this conflict of interest issue, but there 
you go.
    Senator Shelby. I will be brief. I share your remarks, as 
you know, and again, I just want to raise this again.
    Where has EPA been, as Senator Mikulski said? Where has the 
Alabama Department of Environmental Management been? We think 
that we know the answer to those questions: Absent.
    The real question is: Where will they be in the future? We 
ask: Where will they be in the future? I believe we have to 
have a comprehensive health study of the community, and I 
believe, sir, the EPA can do that. And if you do not do it, 
there is not going to be any trust by this Senator.
    I cannot speak for the chairperson here, but I can read the 
questions she is asking, and the tone of the questions. I do 
not believe there is going to be any confidence in this 
committee, which is the funding committee for EPA.
    If you are not going to do this right--you have botched it 
in the past. The Alabama Department of Environmental Management 
has botched it in the past.
    What are you going to do about it now? We hope you are 
going to do it right, because it is the right thing for the 
people.
    Thank you, Madam Chairman. I know we have some others.
    Senator Mikulski. Thank you.
    Well, again, we could ask additional questions, but we want 
to thank you for coming today, and I think this has been a very 
good exchange. But I think there are lot of flashing yellow 
lights over this, over why it took EPA so long to really stand 
sentry on this issue, and get action. I think its current 
management structure, where Region 4--and this is one of the 
biggest issues, and then one of the ongoing issues.
    Well, let us hear from Alabama now, and let us hear from 
the community. This first panel is excused.
    We now call Mr. Stephen Cobb, from the Alabama Department 
of Environmental Management, as well as Mr. David Baker, the 
President of the Community Against Pollution, the grassroots 
organization in Anniston.
    While our witnesses are taking their seats, I want to note 
that Mr. Baker is Mr. David Baker, Sr. He grew up in Hobson 
City, Alabama, was in the Navy, honorably discharged, and 
worked in health care issues at a local municipal hospital, and 
came out of retirement to work on this issue, and has been one 
of the lead advocates on this.
    We know he lives in Anniston with five children. We also 
know that he is accompanied today by Shirley Williams Baker, 
who works with him on this great task.
    Mrs. Baker, would you stand so we could acknowledge your 
presence, ma'am? And we welcome you.
    We note also that Mr. Baker is a member of the NAACP, and 
the Coalition for Black Trade Unionists, and has been a life-
long activist.
    Also here today is Mr. Stephen Cobb, from the Alabama 
Department of Environmental Management. He is the Chief of the 
Hazardous Waste Branch, since August of 1999. He comes with a 
background really of environmental engineering, with degrees in 
agricultural engineering from Auburn undergraduate, and then a 
masters in agricultural engineering, and a minor in civil 
engineering, and is a registered professional engineer, and is 
a certified public manager.
    So we welcome you, Mr. Cobb.
    Mr. Baker, we have been listening from government all 
morning. What I am going to do is ask you to testify, and then 
ask Mr. Cobb to be the second speaker, and just go on, right 
on, and then we will go to our questions.
    So, Mr. Baker, we welcome you, and ask you to proceed, sir.
STATEMENT OF DAVID BAKER, SR., PRESIDENT, COMMUNITY 
            AGAINST POLLUTION (CAP), ANNISTON, ALABAMA
    Mr. Baker. Thank you, Madam Chairperson.
    Senator Mikulski, Senator Shelby, thank you for this 
opportunity to testify before you today. I will summarize my 
remarks today, and would like to enter my entire testimony into 
the record.
    A public debate on the Federal Government's responsibility 
to help my community has been a long time coming. I would also 
like to take this opportunity to just recognize a good friend 
of mine, and my ex-boss, Bill Lucy, the Coalition of Black 
Trade Unionist's president, as well as the International 
Treasurer, from Virginia, who is present here with me, and my 
vice president, James Hall. I would like to thank the 
Environmental Working Group here in Washington, D.C., who have 
worked with us there in Alabama, under Mr. Ken Cook's 
direction.
    The people of Anniston, Alabama, have waited for more than 
40 years for the Federal Government to step in and help us 
clean up the PCB contaminants in our backyards, and in our 
playgrounds, our rivers, our creeks, and in our bodies. 
Unfortunately, after 40 years of waiting, I am here today to 
report that the Federal Government has failed the people of 
Anniston, and left the fox guarding the hen house.
    This bailout that I speak about today is not a consent 
decree. I would like to take this opportunity, Madam 
Chairperson, to just let you know that after sitting here 
listening for the last hour or so, or the last 45 minutes, I am 
somewhat disturbed at some of the statements that have been 
made, and I am somewhat disturbed that if half of the people 
that were affected by this were here today, you would see tears 
in their eyes. So I have to cry for them. I looked at my vice 
president, as people testified.
    Anniston, the West Anniston area, geographically, is a 
pretty much mixed area. The landfill that sits in our area sits 
between Monsanto and Hobson City, as well as Central City, and 
part of Nova Street. Geographically, it sits across the street, 
adjacent from the plant. It did not take us, as rocket 
scientists, as a community, to recognize the fact that when 
they began to tear Sweet Valley and Cobbtown down, 
understanding that it had been contaminated, it did not take an 
engineer that lived in our community to tell you that the 
contaminants that went to Choccolocco Creek, and onto Martin 
Lake, it did not take an engineer to tell us that West 
Anniston, in its entirety, was contaminated.
    In 1995, after finding out Sweet Valley and Cobbtown was 
contaminated, there were efforts made to move those people out 
of the area. Successfully, and after a long duration, they were 
properly moved. People were bought out by Solutia, Monsanto, 
and moved into other areas. Many of them left with a mortgage. 
These are people whose homes were given to them by their 
parents, their great-grandparents. Many of them had to leave 
furniture and carpet inside their homes. Churches that were 
then located in that area were also torn down, and then split 
between the community.
    This company that I speak about today, and this problem 
that I speak about today, when you find that it is a bailout, 
after knowing that all these years that people knew and did 
nothing about it, hardens my heart. It is obvious that they 
thought that this could continue, and no one would pay any 
attention to the problem. This is why we are here today. It is 
not because of an oil spill that was off the shores of the 
Gulf. This is about someone deceiving the community.
    Over the last 30 to 40 years of my life, prior to me 
leaving and going to New York to become a union rep, I found 
myself eating from Choccolocco Creek, many fish, as a child, 
playing in those drain ditches, and as many other children. 
Just a few days ago, when the courts finally gave us justice by 
finding this company guilty of all these notorious crimes, the 
EPA then decided to have an enforcement order.
    We knew that there was an attempt made prior to this to 
have these enforcement orders done, to make this enforcement 
order come to be, but surprisingly, what scared us was when 
they found them guilty, it popped up. From where I stand, and 
from where our community stands, if it walks like a duck, and 
it quacks like a duck, it has to be a duck.
    Why did you wait until we had found them guilty in a court 
of law, and then turn around and do an enforcement order, and 
claim that there is no way that you can get rid of it, and this 
is the best deal you could have? As a labor leader, I remember 
in negotiations, when you are negotiating, if you do not like 
what is being said, you continue the negotiations. If you have 
been negotiating for 2 years, what was the hurry just at that 
particular time?
    $3\1/2\ million, they keep jumping up saying that they want 
to give us for our special education. Sure, we need it. We need 
this special education money, because we have children who 
cannot learn, but we also have children who are handicapped; we 
also have children who are just being born deformed. We also 
have people right now, that are 30 or 40 years old, that have 
cancer.
    Just a slight story: Just the other day, the EPA came into 
the community and told the lady across the street from where I 
live--her son is 3 years old--``Do not let him go outside and 
play in the yard, because your yard is highly contaminated.''
    We were given a warning, an advisement warning by ATSDR. We 
have been living this way for the last 4 years. The last 4 
years; we have had to take off our shoes when we got ready to 
go into the house. Our children cannot play on the grass, so 
they play in the streets.
    Our children should wash their balls if they are playing 
outside, wash the dogs if they wanted to play with their own 
pets in their yard. We cannot plant a garden in our yard 
anymore. Many of the times we have been told, ``Well, you can 
plant the garden, but you have to be careful how you plant 
it.'' We have people planting collard greens in five-gallon 
buckets just to enjoy the land that they live on.
    No one will loan us money on our property. No one wants to 
move into our community, and believe me, nobody really wants to 
move from the community. All we ask is that the landfill that 
caused this problem--and it is the cause of the problem. It is 
buried. Many times today I have heard them talk about just 
PCBs, but it is not just PCBs that is buried in that landfill. 
They buried lead, two lead vats that we know of; mercury. They 
released it on the community. And for 40-something years, 
people have looked the other way.
    Why is the government so interested at this point to run in 
with a last-minute savior to bail Monsanto out, I do not know. 
But I thought that when we went to court the other morning--
when I was called and told that we had won the case, that we 
had won, and I got up in the bed, and I began to cry. It was 
the first time after 4 years that some relief had come.
    And then there is a 180-degree turn. Monsanto ran right 
into court right after this decree order was signed, and said, 
``Throw out 3,500 complainants' cases,'' and asked the judge to 
do so.
    Why did they give them leverage? I do not know. Was it done 
intentionally? I cannot say. But the other night when they told 
the community and my neighborhood that they had the best deal 
in the world, it did not work. And I hope today that you have 
heard enough, and I think that you have presented enough 
yourself.
    You understand that Anniston is not in South Africa, 
Rhodesia, or some other totalitarian country, that we are 
Americans, and we live in Anniston, Alabama, and all we want to 
do is live a normal life.
    Yes, we do need a health study. We do need a health 
assessment. We need a health clinic. We need everything that 
could be offered, because we have suffered so long.
    I thank you.
    Senator Mikulski. Well, thank you very much, Mr. Baker. 
That was a pretty compelling conversation.
    [The statement follows:]

                   Prepared Statement of David Baker

Summary
    Senator Mikulski, Senator Shelby, thank you for this opportunity to 
testify today. I will summarize my remarks today and would like to 
enter my entire testimony for the record.
    A public debate on the Federal Government's responsibility to help 
my community has been a long time coming. I also want to recognize Mr. 
Lucy from CBTU and thank him and his organization for all their support 
on this issue.
    The people of Anniston, Alabama have waited more than 40 years for 
the Federal Government to step in and help clean up the PCB 
contamination in our backyards, our playgrounds, our rivers and creeks 
and our bodies. Unfortunately, after 40 years of waiting, I am here 
today to report that the Federal Government has failed the people of 
Anniston and left the fox to guard the henhouse.
    In our opinion, EPA made a 180 degree turn from their original 
proposal to cleanup Anniston's PCB contamination. We do not believe the 
consent decree or ``Monsanto \1\ bailout'' is in the best interests of 
our community, but instead serves the needs of Monsanto. EPA has handed 
over their responsibility to protect our health and our environment to 
the same corporate polluter that has misled us for over 40 years. EPA 
must go back to the drawing board and start over.
---------------------------------------------------------------------------
    \1\ References to Monsanto include Monsanto, its corporate spin-off 
Solutia and its parent company Pharmacia.
---------------------------------------------------------------------------
    This hearing today is critically important to help the people of 
Anniston shine a bright light on what decisions were made and by whom 
at EPA and the Department of Justice. Documents show the original 
consent decree proposed by EPA would have held Monsanto accountable. 
Now, a year later, we want to know why such dramatic changes to the 
original proposal for a consent decree were made.
    Madame Chairwoman, you are a former community activist and I know 
you have had your own battles with the Federal Government to ensure 
your constituents are not exposed to PCB contamination. You can 
understand the struggle my community has been through over the last 2 
decades trying to bring justice to our residents.
    Thousands of residents of Anniston have PCBs in our blood and 
hundreds of children in our community have learning disabilities and 
behavioral problems. We have high incidences of cancer, diabetes, 
asthma, thyroid problems and lupis. We can't grow any food in our 
gardens and our children can't play in our yards. Many of us can't 
drink water out of our faucets. We can't sell our houses, our churches 
have been closed and our neighborhoods are dying. All because our 
community is saturated with PCBs.
    The story of Anniston is not unique. There are thousands of people 
in thousands of communities across the country that face similar 
contamination, some whose environment and bodies are burdened with 
chemicals we know, like PCBs, and some who are being exposed and 
contaminated by new chemicals whose health effects are barely even been 
known.
    Anniston represents the many communities faced with toxic chemicals 
in our air, water, and soils without the public's knowledge. ADEM 
recently fined Solutia, for the first time ever, $87,000 for not 
reporting chemical discharges. This is just a slap on the wrist for the 
company and is an example of how current State and Federal 
environmental legislation is riddled with loopholes. As Anniston shows, 
corporate polluters are not held accountable for what they are 
releasing and the public is not told what the health impacts may be 
from these toxic chemicals. Our community is an example that following 
the ``hear no evil, see no evil, speak no evil'' approach does not 
work.
    After trying to get State and Federal officials to help the people 
of Anniston for decades, this latest retreat does not necessarily 
surprise us. However, in this case, it has directly interfered with our 
own pursuit of justice in the State court system. Looking at the 
documents now available from Monsanto and EPA, and posted on 
Environmental Working Group's web site, we have to wonder if Monsanto 
would have cooperated with the court process if they didn't have this 
seemingly sweetheart deal in their back pocket?
    EPA wants us to believe that their consent decree is the best deal 
we will get and will be the quickest path to cleaning up the PCB 
contamination in our town. How can we believe EPA with Superfund 
cleanups being cut in half this year? Why should we trust EPA to take 
care of our town since Anniston is not on the National Priorities List? 
EPA won't even finish the scoring because Monsanto keeps trying to put 
a bandaid on an elephant and thinking that will solve the problem.
    The Monsanto bailout leaves out too many of the concerns of the 
community--our immediate need for independent health assessment and 
clinic, long-term environmental health and medical monitoring, clean up 
of the dumps where Monsanto dumped 10 million tons of PCBs, and a fair 
baseline risk assessment conducted by EPA. When you look at it, the 
consent decree makes no sense given Monsanto's history and lack of 
credibility with our community. Just one example is the idea that you 
can cleanup Anniston without cleaning up the dumps. This would be 
equivalent to drying dirty dishes--you still don't address the core 
problem.
    They say that the timing of the decree was a coincidence, not an 
attempt to derail the State court. Yet, the record shows EPA cut 
corners, ignored its own standards and had several last-minute, closed-
door meetings with Monsanto so that the decision could be filed before 
the court finished its proceedings. The decree was signed by Monsanto 
on March 19 and they filed a petition to dismiss the claims of 3,500 
plaintiffs on March 22, 3 days before the decree was lodged. In fact, 
Judge Laird had to subpoena the decree to make it public. Since the 
agreement was filed, EPA has made many conflicting statements about the 
timing, substance and even public review of their decision.
    Since 1998, Community Against Pollution has been trying to build a 
productive, trusting relationship with EPA. That relationship has been 
broken. EPA could have come to the community when they started their 
negotiations with Monsanto and asked for our input and kept us informed 
about the progress. It has been done in many other towns and should 
have been done in Anniston.
    Although we can never make up for the pollution we have been 
exposed to or the decades of corporate coverup, I am here today to ask 
for your help in securing some justice for the people of Anniston. It 
is critical that our community receives funding this year for 
comprehensive health monitoring and a health clinic so we no longer are 
left to wonder about the impact PCBs and other toxics are having on our 
health and our children.
    Let me close by again thanking Senator Mikulski and Senator Shelby 
for holding this hearing today. We also hope that shining a bright 
light on the many toxic chemicals that have permeated our bodies in 
Anniston will convince Congress to do more to protect the public, our 
children and the environment. We know these chemicals are in all of us 
now, including the members of your subcommittee.
    Speaking for the people of Anniston, I sincerely appreciate the 
time you have taken and look forward to working with both of your 
offices to insure that the needs of our community are take care of and 
not just the bottom line of Monsanto. I would like my full testimony 
and key documents be placed into the record.
Introduction
    Senator Mikulski, Senator Shelby, thank you for this opportunity to 
testify today. A public debate on the Federal Government's 
responsibility to help my community has been a long time coming. The 
people of Anniston, Alabama have waited more than 40 years for the 
Federal Government to step in and help clean up the PCB contamination 
in our backyards, our playgrounds, our rivers and creeks and our 
bodies. Unfortunately, after 40 years of waiting, I am here today to 
report that the Federal Government has failed the people of Anniston 
and left the fox to guard the henhouse.
    Instead of listening to the community and finally taking some 
responsibility for the PCB contamination in Anniston, EPA has handed 
over the future of our public health and environmental safety to a 
corporate polluter who has repeatedly mislead Federal officials and 
concealed critical information from the State, the town and from me and 
my neighbors.
    Unfortunately, the story of Anniston is not unique. There are 
thousands of people in thousands of communities across the country that 
face similar contamination, some whose environment and bodies are 
burdened with chemicals we know, like PCB, and some who are being 
exposed and contaminated by new chemicals whose health effects are 
barely known.
    As I testify today, communities like Anniston are reading newspaper 
headlines that tell them EPA will only fund the clean up of 40 
Superfund sites this year. For communities like mine that haven't even 
made it on the National Priority List, but still face similar levels of 
contamination, these headlines have a chilling effect. Will the 
thousands of other communities also be told that corporate polluters, 
like Monsanto, will be responsible for the clean up, the risk 
assessments and the health of the community?
    The Federal Government, whether it is the Environmental Protection 
Agency, ATSDR or the CDC, should ultimately be responsible for ensuring 
that communities like mine know what toxics they are being exposed to, 
identifying the health risks from these toxics and preventing them from 
seeping into our bodies, waterways and communities. Too much of this 
responsibility is currently left to corporate polluters because of the 
gaps in our environmental laws and budget shortfalls to enforce what is 
in place. Anniston clearly shows that under this combination, 
communities lose and well-connected corporations win.
Background
    Poly chlorinated biphenyls (PCBs) production was banned by the U.S. 
in 1977, and PCBs are among the dirty dozen' toxic chemicals named in 
the Persistent Organic Pollutants treaty signed by President Bush last 
summer. As early as 1979, EPA knew that Monsanto had dumped an 
estimated 10 million tons of PCBs in an unlined landfill in Anniston. 
Internal EPA documents show that they were worried about groundwater 
contamination in the early 1970s. The Department of Justice even 
recommended a lawsuit Monsanto around this same time. No one in our 
community was notified of the contamination until the early 1990s.
    Today, we are living with some of the highest levels of PCB in our 
air, water and bodies. A fish from a local creek tested at more that 
7500 times the EPA's safety level in 1969, yet we weren't warned about 
eating fish from local waters until 1993. One of our residents, Ms. 
Ruth Sims, has one of the highest levels of PCBs in her blood ever 
recorded in a person who didn't work directly with PCBs. Even though 
EPA initially wanted to dredge a local creek in 1971 because of PCB 
contamination, no action was taken until 1999. Anniston has ongoing air 
samples that is two to three times higher than the national norm for 
PCBs. A panel of PCB experts testified this past January that Anniston 
has the highest levels of PCBs in our blood and soils in the entire 
world.
    Although State and Federal officials failed to hold Monsanto 
accountable. Twelve citizens of Alabama finally brought justice to 
Anniston this year. These 12 jurists and the State court found Monsanto 
liable for negligence, outrage, suppression of truth and other counts 
for its contamination.
    EPA and Monsanto say that the timing of the decree was a 
coincidence, not an attempt to derail the State court. Yet, the record 
shows EPA cut corners, ignored its own standards and had several last-
minute, closed-door meetings with Monsanto so that the decision could 
be filed before the court finished its proceedings. The decree was 
signed by Monsanto on March 19 and they filed a petition to dismiss the 
claims of 3,500 plaintiffs on March 22, 3 days before the decree was 
lodged. In fact, Judge Laird had to subpoena the decree to make it 
public. Since the agreement was filed, EPA has made many conflicting 
statements about the timing, substance and even public review of their 
decision.
EPA Dramatically Weakens Partial Consent Decree
    EPA started settlement discussions with Monsanto in January, 2001 
with an outline of a consent decree that is dramatically different than 
the one Monsanto's attorneys used to disrupt the court process a year 
later. EPA initially proposed: (1) a more extensive Remedial 
Investigation and Feasibility Study (RIFS) that covered ``all areas 
with hazardous substances associated with Solutia's manufacturing 
processes, including PCBs; (2) a Monsanto funded comprehensive 
environmental health program with medical monitoring of Anniston 
residents; (3) a risk assessment funded by Monsanto but performed by 
EPA; (4) a $10 million education fund for special needs children in 
Anniston; and (5) Monsanto funding to cover the response costs of EPA 
and ATSDR. The consent decree brought into court is a far cry from this 
original proposal and will only cost Monsanto $9 million, $6 million 
for past EPA cleanup costs and $3.2 million for the special education 
fund over 12 years. However, the Monsanto bailout leaves out critical 
funding in years four and five because Monsanto argued that it needs to 
put money into another court-order fund during those years. Just as EPA 
is asking us to trust Monsanto with our health, they also are putting 
Monsanto in charge of this education fund.
    EPA documents show that EPA regional staff did not feel that this 
final decision would pass muster with national standards. In a letter 
to Monsanto's attorney in September, 2001, the EPA Associate General 
Counsel for Region IV wrote that, ``the form of the consent decree is 
such a significant deviation from the models that we may not be able to 
get it approved in the current form.'' The consent decree was approved 
after at least three meetings between Monsanto and EPA in February, 
2002, and in time to significantly impact the court process in Alabama.
EPA Decision Gives Monsanto Back Door to Limited Liability
    The day after the consent decree was announced by EPA and filed in 
court by Monsanto, EPA regional officials even recognized that the 
``timing of everything [involving the Monsanto consent decree] has been 
strange.'' \2\ After 30 years of little action by EPA, 3 weeks after a 
jury verdict of liability against Monsanto and several statements by 
Judge Laird chastising Monsanto for not attempting to settle the case 
in good faith, the watered-down consent decree comes to light during 
testimony by Monsanto officials, throwing a monkey-wrench into the 
court process.
---------------------------------------------------------------------------
    \2\ Elizabeth Bluemink, ``Solutia Signs Agreement with EPA, Files 
New Petition in PCB Trial,'' The Anniston Star, March 23, 2002
---------------------------------------------------------------------------
    Documents made available in the trial show that while Monsanto was 
delaying the court settlement it was accelerating the EPA process. On 
January 22, 2002, Monsanto sent a proposed consent decree to EPA 
declaring that ``the companies view reaching a resolution with EPA and 
proceeding to conduct the RIFS as a top priority.'' \3\ During court 
proceedings, a State regulator testified that EPA officials anticipated 
that their agreement with Monsanto would preempt the State court 
cleanup ruling. In fact, Monsanto itself is now bragging to its 
shareholders that the court process will not lead to significant costs. 
Even though Anniston has 10 times more PCB contamination than the 
Hudson River, Monsanto has stated that their cleanup cost won't be any 
higher than the normal range of $30 to $40 million, much less anywhere 
near the $460 million EPA negotiated cleanup plan for the Hudson 
River.\4\
---------------------------------------------------------------------------
    \3\ Letter from Alan J. Topol, attorney for Monsanto to DOJ and 
EPA, January 22, 2002.
    \4\ Elizabeth Bluemink, ``Legal Storm Brews Over PCB Issues,'' The 
Anniston Star, April 4, 2002.
---------------------------------------------------------------------------
EPA Leaves Monsanto in Charge of Community's Health and Environment
    Although EPA originally proposed a health study be conducted, the 
consent decree includes no provisions for a health study and leaves 
Monsanto in charge of conducting the risk assessment. After having been 
lied to by Monsanto for 40 years, why should the people of Anniston 
have to yet again put our health and the future of our community in the 
hands of Monsanto? Monsanto still insists that PCBs aren't harmful and 
yet we are being told to trust them to do the risk assessment? This 
decision is a complete turnaround from the proposal EPA put on the 
table a year ago and a significant departure from the model agreements 
EPA is supposed to follow. Originally, EPA proposed to perform the risk 
assessment itself and Monsanto would provide funding for, but not 
conduct, a comprehensive community environmental health program with 
medical monitoring. Now, Monsanto will conduct the risk assessment even 
though Monsanto officials acknowledge that their work will have little 
credibility in the community.
    In addition, EPA dropped any requirement for Monsanto to pay for a 
comprehensive health study to determine the effect of PCBs and other 
toxics in our bodies. Throughout our trial in State court, Monsanto has 
fought any medical monitoring in Anniston even though they had 
previously conducted a testing program for plant workers in Anniston. 
What do they not want us to find out? EPA and ATSDR both list PCBs as a 
carcinogen and have named it to the ``dirty dozen'' list of toxic 
chemicals. They support the science showing it is linked to health 
problems in the liver, thyroid, immune system and childhood 
development, and yet they have allowed Monsanto to continue to 
stonewall any health studies in our community.
EPA's Consent Decree Should be Overhauled Completely to Address 
        Anniston's Needs
    The old adage, ``hear no evil, see no evil, speak no evil'' has 
obviously played out in this decision. Although EPA and Monsanto 
negotiated this consent decree in private, behind closed doors, we now 
have an opportunity to shine a bright light on its flaws and demand 
that EPA completely re-examine their decision. For the many reasons I 
have mentioned today, the current consent decree is wholly inadequate. 
It has failed to meet the basic requests of the community. The record 
levels of PCB contamination in our bodies, our water, our soils and our 
air deserve a comprehensive, coordinated effort by EPA, ATSDR and the 
CDC.
    First, Community Against Pollution and thousands of Anniston 
residents want to see our community put on the National Priority List 
for Superfund cleanup. The cleanup needs to cover all of the 
contaminated areas and not be limited to just PCBs. As Monsanto and EPA 
documents show our community is being exposed to mercury, furons, and 
dioxins as well. To date, no one has looked at the geologic features of 
the ground underneath the dumps or where PCBs leaks are occurring. 
Again, remember that 10 million tons of PCBs were dumped in these 
dumps. Not addressing the landfill is like drying dirty dishes, it does 
not get rid of the underlying problem.
    Second, a comprehensive health survey with medical monitoring 
should be conducted by a Federal agency or funding should be provided 
to an independent entity to conduct it. Just recently the Center for 
Disease Control announced that it will start a health monitoring 
program in Calhoun County to identify all the environmental health 
concerns in the county and public health measures needed for people at 
risk. Obviously, we appreciate CDC's effort but do not believe that the 
$140,000 available for the project is anywhere close to what is needed. 
Right now, people are getting sick, know PCBs are all around them and 
in their bodies and they don't know which way to turn or who to believe 
about their health. We need a health clinic in the community that 
people can turn to on a day to day basis. We also need a comprehensive 
health and environmental monitoring programs that will routinely test 
for the level of PCBs and other toxics in our blood, air, water and 
soils. This data needs to be correlated with who is coming down with 
health problems, where they live and what source of contamination is 
leading to people's exposure. This has been done for other communities, 
Superfund site or not. I hope that this subcommittee will fund such an 
effort by the CDC or ATSDR this year.
    Third, EPA or another independent agency must do the risk 
assessment. Allowing Monsanto to do it is a significant departure from 
EPA practice and the results would be questioned by the community. 
There are six factors that EPA must consider before allowing the 
polluter to conduct the risk assessment. One of those key factors is 
the compliance record of the polluter. I am here to tell you that 
Monsanto's compliance record could hardly rank high enough to merit 
allowing them to do the risk assessment. Monsanto and Solutia will 
argue that they are not the same company that spent 40 years 
suppressing information from the community and State regulators, but 
things have not changed. Just recently, ADEM fined Solutia $87,000 for 
failure to report chemical discharges. Why should we trust them now to 
do a fair risk assessment?
    Finally, we want complete, open disclosure about the negotiations 
that took place between EPA Headquarters, the EPA Region 4 office and 
Monsanto to develop this consent decree. Under CERCLA, the Senate has 
authority to require this information be made public and the people of 
Anniston have a right know how this decision went so wrong over the 
course of a year. We have a right to know who in the Administration met 
with Monsanto officials. We have a right to see the paper trail of 
meetings, offers and communications between Monsanto and the 
Administration on this bailout.
Conclusion
    To the people of Anniston, EPA's consent decree with Monsanto is a 
blatant attempt to snatch defeat from the jaws of victory. For the 
first time, we are winning in our battle with Monsanto to hold them 
accountable for the thousands of pounds of PCBs they dumped in our 
community and let seep into our bodies. Twelve jurists found Monsanto 
liable for misleading us and jeopardizing our health and welfare. Judge 
Laird is well on his way to working out a comprehensive cleanup plan 
with Monsanto to bring justice, and just as important, help to the 
people of Anniston. The State of Alabama is finally working with the 
people of Anniston to ensure the contamination is cleaned up and our 
health is protected.
    Unfortunately, Monsanto has found a way to throw a monkey wrench 
into the successful court process. It has persuaded EPA to back down 
considerably from every one of its original proposals for Anniston. 
Essentially, it has told us that yet again Monsanto will be responsible 
for protecting our health and our environment. The people of Anniston 
deserve better.
    Again, I want to thank Senator Mikulski and Senator Shelby for 
holding this hearing today. Speaking for the people of Anniston, I 
sincerely appreciate the time you have taken and look forward to 
working with both of your offices to insure that the needs of our 
community are take care of and not the bottom line of Monsanto. We hope 
you can help our community securing funding this year for health 
monitoring. In addition, it is important that a bright light be shined 
on the toxic chemicals that have permeated our bodies. I hope this 
subcommittee will take these steps to help Anniston and the thousands 
of communities and people facing similar issues around the country.

    Senator Mikulski. Mr. Cobb, why do you not go right ahead 
and proceed?
STATEMENT OF STEPHEN A. COBB, CHIEF, HAZARDOUS WASTE 
            BRANCH, ALABAMA DEPARTMENT OF ENVIRONMENTAL 
            MANAGEMENT
ACCOMPANIED BY JAMES WRIGHT, OFFICE OF THE GENERAL COUNSEL

    Mr. Cobb. Thank you, Madam Chairman.
    Madam Chairman, Senator Shelby, ladies and gentlemen, I 
want to thank you for the opportunity to address the committee 
this morning regarding the PCB contamination in Anniston, 
Alabama. My remarks are intended to summarize the State's 
involvement and the investigation, and the remediation of this 
contamination, and to express our concerns concerning the 
recently proposed consent decree between Pharmacia, Solutia, 
EPA, and DOJ. I have also submitted more detailed written 
information for the Committee's consideration.
    The ADEM Hazardous Waste Branch has been addressing PCB 
contamination in the Anniston area since 1993 in close 
cooperation with EPA. In that time, we have required Solutia, 
and the former Monsanto Company, to perform a number of interim 
remedial measures designed to eliminate further migration of 
contaminants into the environment.
    In addition, we have required the facility to address 
contamination in adjacent residential areas, to remediate 
contaminated properties, to relocate certain residents, and to 
conduct the comprehensive investigation to determine the extent 
of contamination caused by the facility's historical 
operations. These actions have been taken pursuant to the 
State's corrective action program, which is federally 
authorized under RCRA, to be implemented in lieu of the Federal 
program.
    ADEM and EPA mutually agreed in the early 1990s and 
reaffirmed in 1996 that the State RCRA authority was best 
suited to effect cleanup at the former Monsanto plant in 
impacted off-site areas. Comprehensive investigations into 
these areas in the Anniston community continue today pursuant 
to requirements contained in a permit issued to Solutia in 
accordance with the authorized State program.
    Through its document reviews, technical assistance, and 
Federal oversight, EPA has been directly involved in every step 
of this process. In our efforts to effect timely and 
appropriate remediation at the site, ADEM has routinely used 
innovative regulatory methods since taking the lead role in 
1993. Many of the innovations pioneered by ADEM on the Solutia 
project are now advocated nationally by EPA headquarters as 
RCRA corrective action reforms to speed up cleanup at all 
sites.
    Region 4 has routinely commended the ADEM corrective action 
program for its work on this and other sites as part of the 
annual RCRA program review process.
    In July of 1999, ADEM requested EPA assistance in 
addressing certain limited off-site residential areas under its 
CERCLA authority. CERCLA involvement was requested to address 
certain residential property access issues, and to determine 
whether PCB sources other than the Solutia facility exists in 
the area. We offered our support of CERCLA's efforts in 
addressing these areas, and reaffirmed our intent to continue 
addressing facility and other off-site areas under the State 
permit. We have since worked side by side with EPA to address 
the environmental issues facing the Anniston community.
    EPA has stated that the purpose of the proposed consent 
decree is to place the site under one overall umbrella, 
administered by the Federal agency. Though there may be some 
advantages to having the site under one umbrella, EPA's course 
of action yields a number of undesirable and perhaps unintended 
consequences. ADEM's primary concerns surround the scope of the 
proposed consent decree, the impact it has on our federally 
authorized program, its purpose, and the timing of its 
submittal to the courts.
    In a September 24, 1996 memorandum, EPA outlined its 
national policy regarding coordination between the RCRA and 
CERCLA programs. The policy states, and I quote, ``It has long 
been EPA's policy to defer facilities that might be eligible 
for inclusion on the NPL to the RCRA program, if they are 
subject to RCRA corrective action,'' end quote.
    EPA's current actions in this case appear to contradict its 
own longstanding national policy.
    Unlike the comprehensive State permit requirements that it 
seeks to preempt, the proposed decree only addresses the 
remedial investigation feasibility study. Although the proposed 
decree expresses the intent to give credit for work already 
performed, past experience with RCRA and CERCLA programs would 
indicate that considerable effort will be wasted in recreating 
existing information about the site.
    Further, any needed short-or long-term remedial actions 
identified during the course of this investigation would 
require the negotiation of at least one, and likely multiple 
additional agreements in the future. Given that the current 
proposed decree has taken more than a year to negotiate, this 
does not bode well for an expeditious cleanup in Anniston.
    The timing and the purpose of the consent decree is also 
questionable. The entry of a decree at this time and in the 
manner proposed will place EPA in the position to be used as a 
shield to protect a responsible party, in this case Solutia, 
from the legitimate implementation of a federally authorized 
State program, as well as from the lawful jurisdiction of a 
State court addressing pollution liability and common law 
public nuisance issues. Such a consequence is untenable.
    Further, this action can be construed as an attempt to 
usurp the implementation of the ADEM corrective action program 
in a manner that bypasses the due process afforded by Federal 
law and regulation.
    Finally, ADEM is concerned that the nature and timing of 
these actions sends an inappropriate message to the regulated 
community, that CERCLA is a safe haven from State regulations 
and civil proceedings, and the answer to one's legal problems.
    In conclusion, Madam Chairman, ADEM stands ready to 
continue working with EPA to address the environmental issues 
surrounding the Anniston community. ADEM, EPA, the State health 
agencies, the Federal health agencies, the courts, the 
community, and many others must work together to resolve these 
issues, but we must do so in a manner that maximizes the speed, 
efficiency, and effectiveness of the cleanup efforts without 
compromising the integrity and authority of our State programs 
and our judicial system.
    Thank you again for the opportunity to address the 
committee this morning. I will be happy to answer any questions 
that you may have.
    Senator Mikulski. Thank you.
    [The statement follows:]

                 Prepared Statement of Stephen A. Cobb

    Madam Chairman, distinguished Committee members, ladies and 
gentlemen, my name is Stephen Cobb and I represent the Alabama 
Department of Environmental Management (ADEM). Also with me today is 
Mr. James Wright of the ADEM Office of General Counsel. Thank you for 
the opportunity to address the committee this morning regarding the PCB 
contamination in Anniston, Alabama. My remarks are intended to 
summarize the State's involvement in the investigation and remediation 
of this contamination, and to express our concerns regarding the 
recently proposed Consent Decree between Pharmacia, Solutia, EPA, and 
DOJ. I have also submitted more detailed written information for the 
Committee's consideration.
    The ADEM Hazardous Waste Branch has been addressing PCB 
contamination in the Anniston area since 1993, in close cooperation 
with EPA. In that time, we have required Solutia and the former 
Monsanto Company to perform a number of interim remedial measures 
designed to eliminate further migration of contaminants into the 
environment. In addition, we have required the facility to address 
contamination in adjacent residential areas, to remediate contaminated 
properties, to relocate certain residents, and to conduct a 
comprehensive investigation to determine the extent of contamination 
caused by the facility's historical operations. These actions have been 
taken pursuant to the State's corrective action program, which is 
federally authorized under RCRA to be implemented in lieu of the 
Federal program. ADEM and EPA mutually agreed in the early 1990's, and 
re-affirmed in 1996, that the State RCRA authority was best suited to 
effect cleanup at the former Monsanto plant and impacted off-site 
areas. Comprehensive investigations into these areas of the Anniston 
community continue today pursuant to requirements contained in a permit 
issued to Solutia in accordance with the authorized State hazardous 
waste program. Through its document reviews, technical assistance, and 
Federal oversight, EPA has been directly involved in every step of this 
process. In our efforts to effect timely and appropriate remediation at 
this site, ADEM has routinely utilized innovative regulatory methods 
since taking the lead role in 1993. Many of the innovations pioneered 
by ADEM on the Solutia project are now advocated nationally by EPA 
headquarters as RCRA Corrective Action Reforms for all sites. Region 4 
has routinely commended the ADEM corrective action program for its 
outstanding work on this and other sites, as a part of the annual RCRA 
program review process.
    In July 1999, ADEM requested EPA assistance in addressing certain 
limited off-site residential areas under its CERCLA authority. CERCLA 
involvement was requested to address certain residential property 
access issues, and to determine whether PCB sources other than the 
Solutia facility existed in the area. We offered our support of EPA's 
CERCLA efforts in addressing these areas, and re-affirmed our intent to 
continue addressing the facility and other off-site areas under the 
State permit. ADEM has since worked side-by-side with EPA to address 
the environmental issues facing the Anniston community.
    EPA has stated that the purpose of the proposed consent decree is 
to place the site under one overall umbrella, administered by the 
Federal agency. Though there may be some advantages to having the site 
under one umbrella, EPA's course of action yields a number of 
undesirable and, perhaps, unintended consequences. ADEM's primary 
concerns surround the scope of the proposed consent decree, the impact 
it has on our federally authorized corrective action program, its 
purpose, and the timing of its submittal to the courts.
    In a September 24, 1996 memorandum, EPA outlines its national 
policy regarding coordination between the RCRA and CERCLA programs. 
This policy states, and I quote, ``it has long been EPA's policy to 
defer facilities that may be eligible for inclusion on the National 
Priorities List (NPL) to the RCRA program if they are subject to RCRA 
corrective action.'' (end quote). EPA's current actions in this case 
appear to contradict its own longstanding national policy.
    Unlike the comprehensive State permit requirements it seeks to pre-
empt, the proposed decree only addresses the RI/FS (Remedial 
Investigation and Feasibility Study). Although the proposed decree 
expresses the intent to give credit for work already performed, past 
experience with the RCRA and CERCLA programs would indicate that 
considerable effort will be wasted re-creating existing information 
about the site. Further, any needed short- or long-term remedial 
actions identified during the course of this investigation would 
require the negotiation of at least one, and likely multiple, 
additional agreements in the future. Given that the current proposed 
decree has taken more than a year to negotiate, this does not bode well 
for an expeditious PCB cleanup in the Anniston area.
    The timing and purpose of this consent decree is questionable. 
Entry of the decree at this time, and in the manner proposed, will 
place EPA in position to be used as a shield to protect a responsible 
party, in this case Solutia, from the legitimate implementation of a 
federally authorized State program, as well as from the lawful 
jurisdiction of a State court addressing pollution liability and common 
law public nuisance issues. Such a consequence is untenable.
    Further, this action could be construed as an attempt to usurp the 
implementation of ADEM's corrective action program in a manner that 
bypasses the due process afforded by Federal law and regulation.
    Finally, ADEM is concerned that the nature and timing of these 
actions sends an inappropriate message to the regulated community--that 
``CERCLA is a safe haven from State regulations and civil proceedings, 
and the answer to one's legal problems''.
    In conclusion, Madam Chairman, ADEM stands ready to continue 
working with EPA to address the environmental issues surrounding the 
Anniston community. But we must do so in a manner that maximizes the 
speed, efficiency and effectiveness of the cleanup efforts without 
comprising the integrity and the authority of our State regulatory 
programs or our judicial system. Thank you, again, for the opportunity 
to address the Committee this morning. I will be glad to answer any 
questions you may have.

    Senator Mikulski. Senator Shelby, why do you not----
    Senator Shelby. Thank you.
    Senator Mikulski [continuing]. Start again?

                         COMPLETING REMEDIATION

    Senator Shelby. Thank you, Madam Chairman.
    Mr. Baker, you know a lot about this situation in Anniston. 
What do you believe it is going to take to reassure the people 
that live in Calhoun County, that have lived through this for 
years and years, that are so fearful of the environment--what 
is it going to take to reassure them that where they live, 
where they eat, where they breathe is healthy again?
    Mr. Baker. Well, Senator, I am glad you asked me that. 
Number one, the trust is going to have to be put back on the 
table.
    Senator Shelby. That is what I mentioned earlier, is it 
not?
    Mr. Baker. Based upon that, what it would take in terms of 
our community and Calhoun County, in terms of it getting back 
on the right road, it is going to take the landfill that sits 
on 202 to be addressed, and addressed properly.
    Let me just say this, Senator: Monsanto had never been 
fined any monies for all these catastrophes that they have 
created in our community. The other week, they were fined 
$87,000 for the first time for a release that they had done 
just about a month ago, a month or 2 ago, and they had gotten 
away with it for about 90 days, and we were surprised at that.
    When the EPA came in, and they come in, and they did a 
great job in terms of educating us, in terms of allowing us to 
be able to be--for me to sit here at this table to talk about 
the engineering part of this, and all this, and I have to give 
them credit for all the interest, that our community right now 
is more abreast than they were prior to this, because nobody in 
our community knew anything about toxic waste, the dumps, and 
all that nature, so that was the plus side of it.
    But when they fined Monsanto the other day, they were again 
showing that they really do not care. The reason they were 
fined, because they had 15 days, I believe, was just to report 
to ADEM about a leak that they had gotten into our water 
supply, and it was 90 days later, I believe, or some months 
later, that ADEM found out, and they fined them $87,000.
    What aggravated the community the most was when the EPA 
turned around and sent out a letter indicating to my community 
that ``If you do not let us get access agreement''--which they 
already knew that many of our people was under legal 
obligation, and had lawyers--``If you do not, this--if you do 
not send out--if you do not allow people to get onto your 
property to get access agreement, then you will be fined 
$27,000 a day, up to $27,000 a day, if you do not allow the EPA 
or someone to get on your property.''
    Why should we have been intimidated? This is why I am here 
today. My folks have asked, why were we intimidated by using 
that type of language, which I, in fact, told them that that 
was the wrong move to make by sending that letter out, when 
Monsanto, who is the culprit of all the problems, you have not 
even fined them for the landfill that they knew for over the 
last 20-some years, that they have contaminated Choccolocco 
Creek, and all the way down to Martin Lake.
    What we need, we need a health clinic. What we need, we 
need a health study. What we need, we need a cleanup that is 
going to be proper and done right, where people can go back to 
living a normal life, where their property value can be 
uplifted again. And we need to do this, and we need to do it 
now.
    If, in fact, if they had utilized the law that they are 
trying to apply now 5 or 6 years ago, we would right now be in 
probably one or 2 years of really going into a really decent 
cleanup for Anniston, but because someone chose not to use that 
law, but because someone prohibited them from using that law, 
or because of this untimely decree order, look where we are 
now. We are still talking about a study. We are still talking 
about putting this under a microscope like we are little rats. 
We are tired. We want to come out and live like we are human 
beings.

                          ACTIONS BY THE STATE

    Senator Shelby. Thank you for your statement. That was 
good.
    Mr. Cobb, I know you have not been with the Alabama 
Department of Environmental Management during all this time 
line that we are talking about, but it is obvious to me that 
the Alabama Department of Environmental Management and its 
predecessor was absent when they should have been involved. You 
alluded to that a little bit. You were not explicit.
    Senator Mikulski also raised the same basic question with 
EPA: Where was EPA? Well, I think we know. As I said earlier, I 
think we know where your agency has been in the past, and we 
know where EPA has been in the past.
    The question is, again: Where are you going to be in the 
future, starting now? What are you going to do to--not monitor, 
not to say, ``Well, we are going to do a little study,'' or 
``We are going to do this,'' but a comprehensive study is going 
to have to be done for the health, to reassure the people down 
there. Do you disagree with that?
    Mr. Cobb. No, Senator, I do not disagree that a 
comprehensive study needs to be done. If I might answer----
    Senator Shelby. Yes, sir.
    Mr. Cobb. I think there were two parts of your question. 
The comprehensive health study, our role there is working with 
the health agencies, Federal and State, to provide them with 
the information that they need to make decisions, because like 
EPA, ADEM's role is not in the public health arena directly. We 
work with the health agencies to do that.

                         RE-ESTABLISHING TRUST

    To the first part of your question as to ``Where is ADEM 
going to be in the future,'' and also ``Where has ADEM been in 
the past''----
    Senator Shelby. We know where they have been in the past, 
basically. I think the record speaks for itself.
    Mr. Cobb. I cannot speak to where ADEM----
    Senator Shelby. Sure.
    Mr. Cobb [continuing]. Was or was not prior to my tenure 
there. However, as to where we will be in the future, I would 
ask you to look at where we have been since 1993, when my 
program began working on this project. We have aggressively 
pursued remediation. Today, there have been in excess of $40 
million worth of interim measures, while we are doing the 
investigations.
    Those are being borne at the company's expense, and we are 
aggressively moving to be able to make final determinations in 
the source areas while we are still studying the larger areas.
    There is an awful lot of work yet to be done at this 
facility. It will not be finished in a year or 2. I do not 
think anybody can hope for that, but working with the 
community, working with the courts, working with EPA, and 
working, all of us, as hard as we can collectively, together, 
and cooperating together, we can get there, and that is our 
goal.
    Senator Shelby. Is this your number one priority in 
Alabama? This has to be one of the highest priorities; that is, 
the contamination in the Anniston area. I am sure you have 
other sites, but this has to be one of the highest.
    Mr. Cobb. Yes, sir. I can say unequivocally that in the 
hazardous waste program, that Calhoun County is our number one 
priority in the State. And the Anniston PCB site, or the 
Solutia facility, is at least tied for number one.
    We have another very high-priority site also in Calhoun 
County that you are probably aware of, that will take some 
time, but we have separate staffs working on those, and we are 
committed to devoting the resources to this that it needs. It 
is very costly to do that, but we are working to do that.
    Senator Shelby. What is your message today, not just to the 
committee, but to the people who are going to be affected by 
everything you do in the future about the cleanup, and the 
health situation there? What is your message? You have a forum 
here.
    Mr. Cobb. My message today, Senator, would be that there 
are some major trust issues that have occurred in the past----
    Senator Shelby. Absolutely.
    Mr. Cobb [continuing]. And we have to find a way to rebuild 
that trust. We have to work together----
    Senator Shelby. How do you do that?
    Mr. Cobb. I believe we do that primarily by open dialogue. 
David and I have had the opportunity----
    Senator Shelby. Oh, by deeds. By deeds, not by words.
    Mr. Cobb. Then by deeds, absolutely.
    Senator Shelby. You have to get there, and you have to be 
involved, and EPA has to be involved in a comprehensive health 
study, and then a comprehensive cleanup, whatever it takes to 
make the people whole, to make the community whole. Is this not 
true?
    Mr. Cobb. Yes, sir. I wholeheartedly agree, and I believe 
that David will agree that throughout this process in the 
1990s, we have had our fits and starts, but what we have 
promised, what we have committed to, that we have done 
everything that we could to deliver, and we have to continue to 
do that.
    Senator Shelby. Thank you, Madam Chairman.

                         SUPERFUND DESIGNATION

    Senator Mikulski. Mr. Baker and Mr. Cobb, you both gave 
really very powerful statements, in terms of the situation that 
Anniston finds itself in now, and the Alabama Environmental 
Agency. Both of you gave very powerful statements that you are 
deeply troubled by this consent decree, and about essentially 
the situation, and that even the elements in the consent 
decree, from your perspective, leave many essential things 
missing that you feel the community needs and, you feel, in 
terms of the authority, to do that.
    Let me step back for a minute, because I would like to 
probe both of you on this. I have accurately summarized your 
concerns, I think, but do you think Anniston should be on the 
Superfund list?
    Mr. Cobb. Is that----
    Senator Mikulski. Both of you. I am sorry. Both of you.
    Mr. Baker. Yes, Senator, and I am going to tell you why. If 
we went to the Superfund and got on the Superfund list, it 
would give us more opportunity for a lot of the things that we 
did not get in this consent decree, and that is a fact. It 
might even take longer, and it has taken as long as it has 
taken already, so yes, I believe we should have been placed on 
there.
    We argued with our local, sometimes with the State, as well 
as with the Federal Government in regard to this. We felt that 
there was political power that kept us from getting on the 
Superfund list. In fact, many of the people, the other night, 
displayed that, while we were sitting in the meeting with the 
EPA.
    But moreover, in terms of this thing, we looked at how this 
consent decree gives us--gives Monsanto all this power, when it 
has no trust. They were found guilty of hiding--it is trust. So 
why would you sit and negotiate, and come out and say, ``Well, 
this is a great plan, but we are going to put this fox to guard 
the hen house''? No. That is what insulted the intelligence of 
our community.
    We should have made the Superfund list, because we started 
out to make sure that we got the best thing that we could for 
our community. So I think that that is what we should have 
gotten, was that. At least it should have been considered to 
the highest level of this, because the negotiation with 
Monsanto does not even work, and Solutia, because it has not 
even worked when they have been found guilty. So what makes you 
think this is going to work, when you sit down and sign this 
consent decree?
    They have violated the orders of ADEM on several occasions, 
where they have not even completed some of the cleanup that 
they should have been doing 5, 6, or 7 years ago, and they have 
not gotten done as of to this date.
    Senator Mikulski. Well, thank you, because essentially, 
you, again, reiterated who has been left out.
    Mr. Cobb, before I comment, sir, why do you not go ahead?
    Mr. Cobb. Sure. Madam Chairman, I will respectfully 
disagree with Mr. Baker. I do not think Superfund listing is 
appropriate for this site at this time. In the early 1980s, 
that might have been appropriate.
    The reason I do not think Superfund listing would be 
appropriate at this time, number one, is because the momentum 
that we have been able to establish over the last several years 
of leading the site forward, I am afraid that a listing would 
slow it down, and we cannot afford to slow down on this site. 
We need to be able to move forward.
    There is also the fact that the case, after working for 6 
years, is currently in the State court systems, and is actively 
being pursued. I think allowing that process to continue to run 
its course, while doing everything we can from a Federal and 
State level to move the site forward, gets cleanup done in 
Anniston faster, and also with all the stigmas that the 
Anniston community has already endured, would avoid the stigma 
of the NPL listing, which does have a significant impact.
    So I believe that we need to focus every effort that we 
have, but I do not believe that the Superfund listing is the 
best approach.
    Senator Mikulski. Well, we are not going to debate that. I 
just asked your opinion, in the time that we have to move on.
    Mr. Cobb, you come with a great deal of professional 
expertise, and I understand you are also accompanied by legal 
counsel. Is that from the Attorney General's Office of the 
State of Alabama?
    Mr. Cobb. Mr. James Wright, from the ADEM Office of the 
General Counsel is with us. Mr. Wright is an associate attorney 
general with the State, as a matter of that office.
    Senator Mikulski. Well, we also want to note that he is 
here, and we welcome him.
    We note that there is this ongoing litigation, and we have 
made it absolutely clear that no part of this testimony should 
in any way jeopardize the proper flow of the Justice 
proceedings, the court proceedings, and we have a member of the 
Alabama Bar, and so on.
    What, in your mind, do we need to insist--let us even say 
this consent decree, as it is, goes on. Is it your belief that 
even if it goes on--and I am not suggesting that it should, or 
how it should turn out, or whatever. Is that then the bottom 
line, or could other things be done, or insisted upon, say, by 
this committee, by EPA, to provide the assistance to the 
community that it needs through appropriate government 
agencies?
    I am not talking penalties, damages, or whatever, but this 
community has been hurting for a long time. And as Mr. Baker 
said, this is not an oil spill in the Gulf. This is a long-term 
situation. And the impact of PCBs are chronic; so, therefore, 
the purpose of this hearing is: What help can we get to the 
community, and to those closest to the community, in this 
place?
    The ADEM--and I am going to come back to you in a minute, 
but you see--so in your mind, and perhaps if you want your 
advisor to join in this, but I would hope that this is not the 
only thing that could be done.
    Would you feel--and that is why we are so troubled by what 
you said here. You phrased really some really significant 
issues about how you think you, ``you'' meaning ADEM, could be 
shackled in terms of being able to move forward to help this 
community. Am I correct?
    Mr. Cobb. Yes, ma'am. I think, clearly, with the motion 
that Mr. Baker commented on, that the company filed in State 
court almost immediately after the filing of the consent 
decree, that certainly the company intends to pursue preemption 
of the State court's and also preemption of the State 
regulatory programs via CERCLA.
    Through our cooperative agreements with EPA, I would hope 
that we would be able to continue to provide assistance, but 
certainly it will be in a different way.
    As to the things that this Committee could do, I think 
certainly this committee, maybe better than anyone else, has 
the ability to influence some of the things like a health 
study, or, based on testimony that I heard in the court 
proceeding, maybe even health research in the area, to work 
with this community to address the health issues, and also 
through the State and local health departments.
    Another thing which I understand that this committee also 
has some control over is ensuring that adequate funding is 
available to the State and to the Federal regulatory agencies, 
to be able to apply the resources to this project, because we 
have a lot of projects, and you have heard before that the 
resources are tight. We want to be able to do the best job that 
we can, and I think this committee can influence that.
    Senator Mikulski. Well, let me go back. How long have you 
been on this job, Mr. Cobb?
    Mr. Cobb. I have been employed with ADEM since 1987. I have 
been involved with the Monsanto facility, first as a project 
engineer, beginning in 1988. As far as the PCB issues, I have 
been involved in either a direct or a senior supervisory role 
on this from the very beginning of it. So I have been involved 
in this project for a long time.

                          ACTIONS BY THE STATE

    Senator Mikulski. Let me just come to you, and then I am 
going to do my wrap-up with Mr. Baker.
    When I read the EPA testimony, and it said ``Over the 
years, EPA has attempted to work closely with ADEM,'' and that 
this has been going on, the 1970s, 1980s, I mean this chronicle 
that we did, where was ADEM?
    Mr. Cobb. Prior to 1993?
    Senator Mikulski. Yes----
    Mr. Cobb. Regarding----
    Senator Mikulski [continuing]. And then really, in the last 
5 years.
    Mr. Cobb. All right. Regarding PCBs, I believe that there 
was some involvement by our water programs prior to the 1990s. 
Having not been involved in those programs, I am not sure I can 
answer that explicitly.
    As to the waste programs, prior to the late 1980s, ADEM did 
not have the statutory or the regulatory authority to address 
PCBs, because our HSWA corollary, the Hazardous Solid Waste 
Amendments corollary to RCRA was not effective until 
approximately 1998, and then we----
    Senator Mikulski. So you did not get into it until--I mean 
you were limited, because PCBs were exempted.
    Mr. Cobb. Right. PCBs were not covered by the RCRA 
regulations that we were implementing until at least the late 
1980s.
    Senator Mikulski. Well, did EPA not know that?
    Mr. Cobb. Yes, ma'am.
    Senator Mikulski. If EPA knew that, and that was not--
because according to this testimony, the language is explicit, 
``Over the years, EPA has attempted,'' implying that you all 
were not prime time, and also that they had this division of 
labor, which they turned over to you.
    Mr. Cobb. Yes, ma'am.
    Senator Mikulski. Again, I am not being brusque with you. I 
hope you understand.
    Mr. Cobb. No, I know.
    Senator Mikulski. I am enormously frustrated. There has 
been a lot of finger pointing, and paper shuffling, and ``It 
was his job, that job, this job,'' but they were without 
someone standing sentry over this community.
    Mr. Cobb. In the early 1980s, it is my understanding that 
the EPA CERCLA program evaluated the Solutia facility on at 
least one, and maybe on a couple of occasions.
    In 1986, both the State and the Federal Government issued 
operating permits for the facility. Because of the limited 
scope of our State regulations, which did not encompass the 
HSWA regulations they were currently regulating under--only the 
EPA permit had the PCB landfills in it, and it did require 
monitoring. We, as we were preparing for authorization for the 
HSWA requirements, chose to take on that role in 1993, and to 
apply the resources to move that forward.
    Senator Mikulski. Well, I could pursue this, but let me 
turn for my final part to Mr. Baker, and then I know that 
Senator Shelby wants to have the final round.
    Mr. Baker, as you noted in your testimony, you very 
graciously commented that I come from a background of community 
activism. You are exactly right, sir. I got into politics. I am 
a professionally trained social worker, but it is in a field 
called community organization and social strategy, organizing 
people for self-help.
    In our whole work in environmental agencies, it has always 
been that the community should have the right to know, the 
right to be heard, and the right to be protected, and not have 
to--though they were going to do it on their own time, they 
should not have to do it on their own dime.
    Mr. Baker. Right. You are absolutely right.

                          CITIZEN VOLUNTEERISM

    Senator Mikulski. So for all of these years, and your 
citizen volunteerism, and your great hardship--and you 
acknowledged the role of your beloved wife who played in this--
how have you been able to bring this forth? I mean this must 
have been a great financial--first of all, a great personal 
cost to you, in terms of time.
    You are retired. You worked as a health aide, and yet you 
put in another shift, being an advocate through the union. And 
does the community, meaning the CAP, or any other community 
group have a big bill? And if you are going against Monsanto's 
lawyers, this lawyer, this regulatory hearing, this public 
health--I mean you are not lawyers. You do not have masters in 
public health. You bring other God-given gifts to the table. 
How have you been able to do this?
    Have you had the resources to do this? Are you holding big 
legal fees, big bills, and so on? Because I am very much 
interested in how citizens continue to be able to do this. We 
used to do it on bake sales, and Fells Point Festivals, and, 
you know, ``Bake Sale Barb'' up here. So tell me--
    Senator Mikulski. Tell me--but it is no laughing matter. I 
mean we, in fighting a highway, what we had to do just to raise 
money for a legal defense fund, and then had to turn to 
students at Johns Hopkins--which Mr. Meiburg, it was the 
university he attended--to give us free help, to analyze the 
stacks, and stacks, and stacks of reports. And then they told 
us, ``You come in with your own plan.''
    Now, how have you been able to do this, and are you holding 
a big bill? I just want you to know, I am worried, not only 
about your public health, but I am worried about your financial 
health as well.
    Mr. Baker. Well, let me just say, when we first started 
out, we started out with what you just said, the cake sales, 
the fried chicken sales on Saturdays and Sundays, and many of 
us reaching into our own pockets. We opened an office in the 
community. We first got an EJ grant, which was $20,000, which 
was $16,000 of that EJ grant up front, and we were able to get 
computers, and stuff of that nature. Subsequently, again, we 
got a another small EJ grant, which was another $20,000.
    Senator Mikulski. What is an EJ grant?
    Mr. Baker. That is an Environmental Justice grant from the 
EPA. We filed for it. It is for $25,000. Usually, you do not 
get it but once. We got it twice.
    Senator Mikulski. That is an important program for us to 
keep in mind----
    Mr. Baker. Yes.
    Senator Mikulski [continuing]. In terms of citizen tools.
    Mr. Baker. Let me just say that without those type of 
grants, the community is still left out. It was a big help for 
the community, because what it did, it opened the doors for us 
to get things that we needed; it opened the doors to get the 
educational factor of this problem out, in terms of working 
with the EPA, and ADEM.
    And as Steve pointed out, we had many meetings, traveling 
back and forth, meeting with each other, arguing with each 
other, debating with each other, whatever.
    But then we had labor unions that pitched in and gave us a 
hand, such as Mr. Lucy, and Jim Butler, president of our Local 
420, in Anniston, a union up in New York City. Contributions 
come in from the community. They come by, and they drop a 
dollar in the bucket, and say, ``Look, this is what you can do 
with this.''
    Senator Mikulski. But it is a drop in the bucket.
    Mr. Baker. Yes. It is a drop in the organization, and 
believe me, it has been a fight and a struggle, but it has been 
God's work. It has not just been the community. This was God's 
choice to this community to wake up, and it woke up.
    Let me just say that on one occasion we had over 10,000 
people just show up at a meeting. On another occasion, we had 
over 5,000 show up. Usually, and Steve can attest to this, we 
always have had close to 500 to 1,000 people to show up at 
meetings at any given time.
    Senator Mikulski. Well, it sounds like my old days.
    Tell me, sir, let me ask you again, Dr. Falk talked about 
how you came to the table with your own health study.
    Mr. Baker. Right.

                              HEALTH STUDY

    Senator Mikulski. Where did that come from? Who did it, and 
who paid for it?
    Mr. Baker. Well, ATSDR did give us--I think, my wife and 
Mr. Hall, the vice president, was in charge of that project. 
They gave us $10,000 to do a health survey back in 1999. That 
is how we came up with the conclusion of the problems that we 
were having, even though we had already had many, you know, had 
blood samples already done by people going to get their own 
blood samples, and stuff of that nature.
    Then subsequently, I believe that we embarked in testing 
for lead. Shirley and James were in charge of that, working 
with ATSDR, and getting kids tested. About 600 children were 
tested, I believe. I think out of--oh, 475.
    Senator Mikulski. How did you find out about ATSDR?
    Mr. Baker. We found out through the EPA. I think it was 
through the EPA that----
    Senator Mikulski. They told you.
    Mr. Baker [continuing]. Referred them to us--referred us to 
them, and had them at some meetings that we were present at.
    Senator Mikulski. Okay. Well, I am now going to turn to 
Senator Shelby.
    Before I do, I just want to say a couple of things. First 
of all, I do want to acknowledge Mr. Lucy, who is a long-time 
friend. When he came in, I was so eager to meet you that I was 
a little distracted. He knew me when I was just a little 
startup.
    As well as the union members that--we want to acknowledge 
this. But this has been very important, and, again, you can let 
us know more after this, in terms of, ``What do citizens need 
to do when they are the Davids, and all they have is this 
slingshot, and they do not even know what rocks they have,'' 
and in terms of how we can empower citizens, at least to begin 
on the right to know, so that they are heard, where they have a 
right to be heard, that they have been able to do this. The 
Environmental Justice grant, I am so glad you articulated this.
    In terms of these public health issues, so that you can 
turn to this, and we are interested in making sure their agency 
has the information, first of all, the tools for them to be 
able to go down into the community to communicate with you, 
because whatever comes out of all of the legal battles, and so 
on, that will be unfolding, we really want to make you, 
Anniston, to really be sure--when we started on this 
legislative area, we always said that the people had to be 
protected, and in order to do that, they need to know what was 
going on, they needed to be able to speak up and be taken 
seriously, but they also needed to have the tools to be able to 
get the self-help they needed to get the government help, and 
private sector that they did.
    So I want to just thank you, and I want to thank all those 
people who cooked, and baked, and sang, and rallied, and so on, 
and put in their own tremendous sweat equity.
    I know that you put in three shifts. You put one in the 
marketplace, earning a living; you put in another shift with 
the family to make sure the living is worthwhile; and now you 
put in a third shift, both as a union leader and as a community 
activist. And I just want to say, God bless you.
    Mr. Baker. Thank you.
    Senator Mikulski. Mr. Cobb, thank you, and all the public 
servants. I mean you can see that a competent civil service is 
important.
    But, Senator Shelby, why do I not turn it over to you now?
    Senator Shelby. I will sum it up, Madam Chairman. I want to 
thank you again, as the chairman of this committee, and for 
allowing me as a member, to request a hearing, and that you 
granted it. I think this has been a good hearing. It is only 
beginning. We have a long way to go.
    Mr. Cobb, you know this. The administrator, regional 
administrator from the EPA basically said this, but we shall 
not stop. We should not stop until we make the people whole 
there, and it is going to take a lot of work, and it is going 
to take a lot of pressure. Thank you.
    Thank you, Senator Mikulski.

                         CONCLUSION OF HEARING

    Senator Mikulski. Okay. This subcommittee stands in recess.
    [Whereupon, at 12:15 p.m., Friday, April 19, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
